<html>
<title> - [H.A.S.C. No. 114-22]OPENING STATEMENT OF HON. WILLIAM M. ``MAC''THORNBERRY, A REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED SERVICES</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


                        

                         [H.A.S.C. No. 114-22]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2016

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

                        THE PRESIDENT'S PROPOSED

                      AUTHORIZATION FOR THE USE OF

                  MILITARY FORCE AGAINST ISIL AND THE

                   FISCAL YEAR 2016 NATIONAL DEFENSE

                      AUTHORIZATION BUDGET REQUEST

                     FROM THE DEPARTMENT OF DEFENSE

                               __________

                              HEARING HELD

                             MARCH 18, 2015
                                     
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 


                               ____________
                               
                               
                          U.S. GOVERNMENT PUBLISHING OFFICE
94-224                            WASHINGTON : 2016                               
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5037203f103325232438353c207e333f3d7e">[email&#160;protected]</a>  
   





                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
STEVEN M. PALAZZO, Mississippi       DONALD NORCROSS, New Jersey
MO BROOKS, Alabama                   RUBEN GALLEGO, Arizona
RICHARD B. NUGENT, Florida           MARK TAKAI, Hawaii
PAUL COOK, California                GWEN GRAHAM, Florida
JIM BRIDENSTINE, Oklahoma            BRAD ASHFORD, Nebraska
BRAD R. WENSTRUP, Ohio               SETH MOULTON, Massachusetts
JACKIE WALORSKI, Indiana             PETE AGUILAR, California
BRADLEY BYRNE, Alabama
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey

                  Robert L. Simmons II, Staff Director
                 Kari Bingen, Professional Staff Member
                 Mike Casey, Professional Staff Member
                         Michael Tehrani, Clerk
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Committee 
  on Armed Services..............................................     2
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Chairman, Committee on Armed Services..........................     1

                               WITNESSES

Carter, Hon. Ashton B., Secretary of Defense.....................     3
Dempsey, GEN Martin E., USA, Chairman of the Joint Chiefs of 
  Staff..........................................................     5

                                APPENDIX

Prepared Statements:

    Carter, Hon. Ashton B........................................    64
    Dempsey, GEN Martin E........................................    84
    Smith, Hon. Adam, a Representative from Washington, Ranking 
      Member, Committee on Armed Services........................    63

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Moulton..................................................   103
    Mr. O'Rourke.................................................   102
    Mr. Takai....................................................   102
    Mr. Thornberry...............................................   101
    Dr. Wenstrup.................................................   101

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   107
    Mr. Conaway..................................................   110
    Ms. Duckworth................................................   112
    Mr. Shuster..................................................   108
    Mr. Walz.....................................................   113
 

 THE PRESIDENT'S PROPOSED AUTHORIZATION FOR THE USE OF MILITARY FORCE 
 AGAINST ISIL AND THE FISCAL YEAR 2016 NATIONAL DEFENSE AUTHORIZATION 
             BUDGET REQUEST FROM THE DEPARTMENT OF DEFENSE

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, March 18, 2015.
    The committee met, pursuant to call, at 10:04 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.


 
  OPENING STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
    REPRESENTATIVE FROM TEXAS, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    Before we begin today, I want to ask unanimous consent that 
non-committee members, if any, be allowed to participate in 
today's hearing after all committee members have had an 
opportunity to ask questions.
    And by way of explanation, I might say that one of our 
committee members has tentatively been appointed to another 
committee, and his replacement has tentatively been named, Mr. 
Russell from Oklahoma, but it has not been ratified by the 
Republican Conference yet. And so Mr. Russell is with us today.
    But without objection, non-committee members will be 
recognized at the appropriate time.
    Let me welcome our distinguished witnesses to today's 
hearing.
    Secretary Carter, thank you for being with us. You have 
been in this room in a variety of capacities over the years, 
but this is the first hearing since you were confirmed as 
Secretary of Defense roughly a month ago, and we are very glad 
to have you with us.
    General Dempsey, thank you for being here. And I want to 
say again, all the committee members appreciated your 
participation in our retreat about a month ago at Annapolis. 
The fact that you would take time to come out there, meet with 
us and discuss some of the challenges we face was extremely 
helpful and meant a lot, and we are very grateful for that, for 
being here today, and for your many years of service.
    As you all know, this committee has done things a little 
differently this year. Rather than start out talking about the 
President's budget, we have spent the last 2 months looking at 
the national security challenges that we face around the world, 
and I think that has put us in a better place to be able to 
look at the administration's budget request and a number of the 
other issues that are before us.
    I would say for me, one of the key takeaways from the last 
2 months has been the growing threat to our technological 
superiority. We have had classified and unclassified sessions 
on that, and to me, it is one of the key challenges we face.
    And as I mentioned, Mr. Secretary, as I was perusing my 
bookshelf, I came upon a very brilliant edition called 
``Keeping the Edge: Managing Defense for the Future,'' edited 
by one Ashton B. Carter and John P. White.
    And there is a particular chapter talking about the 
technological edge that I had made some notes in, where 
essentially, it said two of the things we have to do to 
maintain the technological edge is to align our defense 
procurement practices with market forces, and secondly, to 
remain the world's fastest integrator of commercial technology 
into defense systems.
    I kind of wonder how we are doing these days. I think that 
is very relevant for today. I just had a meeting with one of 
the leading defense thinkers last week that talked about the 
challenge of integrating commercial technology into defense 
articles and how we are not doing as well as we should.
    As you know, reform is a major priority of this committee 
on both sides of the aisle. Mr. Smith certainly shares my 
concern, as do, I think, all the members here. And so that is 
one of the topics that we want to talk with you about.
    There are many others, including the President's request 
for the authorization to use military force against ISIS 
[Islamic State of Iraq and Syria]. We have had several sessions 
on that with a lot of concerns with the wording that has come 
to us from the administration, and I know members will want to 
ask questions about that and other topics.
    Before we get to those, let me talk--let me yield to the 
distinguished ranking member sit-in for today, the 
distinguished gentlelady from California, Mrs. Davis, for any 
comments she would like to make.

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Mrs. Davis. Thank you very much, Mr. Chairman.
    Secretary Carter, Chairman Dempsey, thank you both for 
being here today.
    I want to first send our best wishes to the ranking member, 
Adam Smith. We all know that he has been through a difficult 
time, and we wish him a quick and a speedy recovery.
    I want to ask unanimous consent that we put his remarks and 
his opening statement into the record.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 63.]
    The Chairman. Without objection.
    Mrs. Davis. Chairman Dempsey, this will likely be your last 
time before this committee. We are probably going to find some 
excuse to get you back, I am sure.
    While I am sure you aren't too broken up about not coming 
back, we will surely miss your thoughtful discourse and your 
care of our young service members. Thank you very much, sir, 
for your service.
    And Secretary Carter, I bet you would rather have waited 
until after the NDAA [National Defense Authorization Act] was 
complete before coming up and speaking with us, but I think 
that it presents a great opportunity to help shape the budget 
during a very difficult time, and your expertise, your 
insights, are going to be very well received. Thank you, sir.
    Sequestration is obviously at the forefront of everyone's 
minds. But we must also remember that we are still engaged in 
two conflicts, facing unconditional threats halfway around the 
world, while still battling suicide, sexual assault, and 
retention and recruitment issues here at home.
    But these are only a few of the discussion points that we 
face when looking at the budget. We have to look beyond just 
defense to the entire budget, and we realize that cuts to other 
portions of the Federal budget will affect the Department of 
Defense [DOD] more often than we realize.
    It was just yesterday that the secretaries and the service 
chiefs spoke about of those who consider going in to the 
service, roughly 75 percent do not meet the requirements today. 
And we have to be mindful of that, and maybe that is what we 
call a whole-of-government approach to that particular issue.
    We must also ensure that this budget is in line with our 
national security strategy. We cannot address conflicts around 
the globe if our strategy is not in line with current threats 
and our budgetary situation.
    We should not be finding piecemeal ways of fixing these 
problems in our budget, but we really do, and I know the 
chairman believes in this, rolling all of our sleeves up, and 
working together in addressing sequestration as a whole.
    I look forward to both of your statements here today, as 
well as the opportunity for an honest and open dialogue. Thank 
you, again.
    Thank you, Mr. Chairman.
    The Chairman. Thank the gentlelady.
    Mr. Secretary, again, thank you for being here. Without 
objection your full written statement will be made part of the 
record. Please proceed.

    STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE

    Secretary Carter. Thank you very much, Chairman Thornberry. 
Thank you, Congresswoman Davis, thank you also.
    And all the members of the committee, thank you for having 
me here today. It is a pleasure to be with you once again.
    I have had the opportunity to speak with many of you 
before, but this is my first time testifying as the Secretary 
of Defense. And I know that all of you, all of you on the 
committee, including the 23 veterans on this committee, share 
the same devotion that I do to what is the finest fighting 
force the world has ever known. And to the defense of our great 
country. And I thank you for that. And I hope that my tenure as 
Secretary of Defense will be marked by partnership with you on 
their behalf.
    I am here to present the President's budget for the 
Department of Defense for this year, fiscal year 2016, and I 
strongly support the President in requesting a defense budget 
above the artificial caps of the Budget Control Act, that is, 
above so-called sequester levels, next year, and in the years 
thereafter.
    I also share the President's desire to find a way forward 
that upholds the fundamental principles behind the Bipartisan 
Budget Act of 2013. And I support his commitment to vetoing any 
bill that locks in sequestration, because to do otherwise would 
be both unsafe and wasteful.
    The administration is therefore proposing to increase the 
defense budget in line with the projections submitted to 
Congress last year, halting the decline in defense spending 
imposed by the Budget Control Act, while giving us the 
resources we need to execute our Nation's defense strategy.
    As the chairman noted, strategy comes first. And that is 
the appropriate way to think about the budget.
    But, and I want to be very clear about this, under 
sequestration, which is set to return in 197 days, our Nation 
will be less secure.
    And Mr. Chairman, as you and your colleagues have said, 
sequestration threatens our military's readiness. It threatens 
the size of our warfighting forces, the capabilities of our air 
and naval fleets, and ultimately, the lives of our men and 
women in uniform. And the Joint Chiefs have said the same.
    And the great tragedy is that this corrosive damage to our 
national security is not a result of objective factors, logic, 
reason. Instead, sequester is purely the fallout of political 
gridlock. Its purpose was to compel prudent compromise on our 
long-term fiscal challenges. A compromise that never came.
    And this has been compounded in recent years, because the 
Defense Department has suffered a double whammy. The worst of 
both worlds, that has coupled mindless sequestration with 
constraints on our ability to reform. We need your help with 
both.
    And I know that Chairman Thornberry, Ranking Member Smith, 
and others on this committee, are as dedicated to reform as I 
am. And I appreciate the--your dedication to it and the 
opportunity to work with you, because we at the Pentagon can 
and we must do better at getting value for the defense dollar. 
There are significant savings to be found across DOD, and we 
are committed to pursuing them.
    But at the same time, I have to note that in the past 
several years, painful but necessary reforms proposed by DOD, 
reforms involving elimination of overhead and unneeded 
infrastructure, retirement of older systems, and reasonable 
adjustments in compensation have been denied by Congress at the 
same time that sequestration has loomed.
    If confronted with sequestration-level budgets and 
continued obstacles to reform, I do not believe that we can 
simply keep making incremental cuts. We would have to change 
the shape and not just the size of our military, significantly 
impacting parts of our defense strategy. We cannot meet 
sequester with further half measures.
    As Secretary of Defense, I will not send troops into a 
fight with outdated equipment, inadequate readiness, or 
ineffective doctrine. But everything else is on the table, 
including parts of our budget that have long been considered 
inviolate.
    This may lead to decisions that no Americans, including 
Members of Congress, want us to make.
    And, now, I am not afraid to ask the difficult questions. 
But if we are stuck with sequestration's budget cuts over the 
long term, our entire Nation will have to live with the 
answers. So instead of sequestration, I urge you to embrace the 
alternative--building the force of the future. Powerful enough 
to underwrite our strategy. Equipped with boldly new technology 
as the chairman stressed. Leading in domains like cyber and 
space. Being lean and efficient throughout the enterprise. 
Showing resolve to friends and potential foes alike. And 
attracting and retaining the best Americans to our mission. 
Americans like the elite cyber-warriors I met last week when I 
visited our Cyber Command. That is the alternative that we can 
have without sequestration.
    So, Mr. Chairman, the world in 2014 was more complicated 
than anyone could have predicted. Given today's security 
environment, the President's proposed increase in defense 
spending over last year's budget is responsible, prudent, and 
essential for providing our troops what they need and what they 
fully deserve.
    Thank you, and I look forward to your questions.
    [The prepared statement of Secretary Carter can be found in 
the Appendix on page 64.]
    The Chairman. Thank you, sir.
    General Dempsey, I am not quite ready to let you go yet, so 
I am not gonna talk about this being one of your last hearings. 
But thank you for being here, and please make any oral comments 
you would like to make.

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN OF THE JOINT 
                        CHIEFS OF STAFF

    General Dempsey. Thank you, Chairman, Congresswoman Davis, 
distinguished members of the committee. I appreciate the 
opportunity to provide you an update on our Armed Forces and to 
discuss the defense budget for 2016.
    And I will add, it has been a rare privilege to have 
represented the Armed Forces of the United States, the men and 
women who serve around the world, before this committee to live 
up to our Article I, Section 8 responsibility together. And so, 
if this is my last hearing, I thank you for the opportunity, 
and if it is not, until we meet again.
    I would ask you, Chairman, to submit my written statement 
for the record, and I will defer the many--I will defer mention 
in my opening statement of the many security challenges we face 
because I am quite confident they will be addressed in 
questions.
    But I will say the global security environment is as 
uncertain as I have seen in my 40 years of service. And, we are 
at a point where our national aspirations are at risk of 
exceeding our available resources.
    We have heard the Congress loud and clear as it has 
challenged us to become more efficient and to determine the 
minimum essential requirements we need to do what the Nation 
asks us to do. And PB16 [President's budget for fiscal year 
2016] is actually that answer.
    In my judgment this budget represents a responsible 
combination of capability, capacity, and readiness. It is what 
we need to remain at the bottom edge of manageable risk against 
our national security strategy. There is no slack.
    I have been here for 4 years now, and we have watched our 
budget authority decline. I am reporting to you today there is 
no slack, no margin left for error, nor for response to 
strategic surprise.
    Funding lower than PB16 and a lack of flexibility to make 
the internal reforms that we need to make will put us in a 
situation where we will have to adjust our national security 
strategy. That doesn't mean it disappears in its entirety, but 
we will have to make some adjustments to the way we do 
business.
    You may decide that is a good thing. I will certainly be 
willing to have that conversation with you.
    For the past 25 years, the United States military has 
secured the global commons. We have deterred adversaries, we 
have reassured our allies, and we have responded to crises and 
to conflict principally by maintaining our presence abroad. It 
has been our strategy to shape the international environment by 
our forward presence and by building relationships with 
regional partners.
    In general terms, one third of our force is forward-
deployed, one third has just returned, and the other third is 
preparing to go.
    Of necessity, even at that, there have been certain 
capabilities who actually operate half the time deployed and 
half the time back at home. And this, as you know, puts a 
significant strain on the men and women and their families who 
serve in those particular specialties.
    Sequestration will fundamentally and significantly change 
the way we deploy the force and the way we shape the security 
environment. We will be, at the end of the day, if 
sequestration is imposed, 20 percent smaller, and our forward 
presence will be reduced by more than a third.
    We will have less influence, and we will be less 
responsive. Conflict will take longer to resolve and will 
create more casualties and cost more. In an age when we are 
less certain about what will happen next, but I think we would 
agree, quite certain that it will happen more quickly, we will 
be further away and less ready than we need to be. Simply 
stated, sequestration will result in a dramatic change in how 
we protect our Nation and how we promote our national security 
interests.
    Mr. Chairman, members of this committee, our men and women 
in uniform are performing around the globe with extraordinary 
courage, character, and professionalism. We owe them and their 
families clarity and, importantly, predictability on everything 
from policy to compensation, health care, equipment, training, 
and readiness.
    Settling down uncertainty in our decision-making processes 
and getting us out of the cycle that we have been in, which has 
been one year at a time, will help us keep the right people, 
which, after all, is our decisive edge as a nation in our All-
Volunteer Force, and we will be able to maintain the military 
that the American people deserve and, frankly, expect.
    I am grateful for the continued support to our men in 
uniform--men and women in uniform from this committee and from 
the Congress of the United States, and I look forward to your 
questions.
    [The prepared statement of General Dempsey can be found in 
the Appendix on page 84.]
    The Chairman. Thank you, sir.
    I might also note that we have Mr. Michael McCord, the 
Comptroller of the Department, who is available with us to 
answer questions.
    And Mr. McCord, I might just warn you that audit came up 
several times yesterday with the service chiefs, and if 
somebody else doesn't ask about it, I am going to at the end, 
because there is concern that some of the defense-wide agencies 
are going to be the hold-up rather than the services. And we 
will get into that as appropriate.
    Mr. Secretary, I very much appreciate your willingness to 
work with us and the Senate on various reform issues. I think 
you make excellent points about the need to find greater 
efficiency in the Department.
    And again, thinking back to what you wrote 15 years ago, as 
the chairman just said, our security environment is incredibly 
more complicated than we could have imagined in the year 2000 
when you wrote those words.
    And so it seems to me that even more than efficiency, some 
sort of reform, and especially reform in how we acquire goods 
and services, is needed to make the Department more agile, 
because there is no way we are going to predict what is 
happening. And if we--if it takes us 20 years to field a new 
system, there is no way we will be up with technology or 
meeting the threat.
    So the need for agility is even a higher priority, in my 
mind, than the need for efficiency.
    Do you have any comments about how that interplays?
    Secretary Carter. I think that is very wise.
    It is not just about saving money; if we can't keep up with 
the pace at which technology is changing in the world as a 
whole and we can't turn technological corners faster than a 
typical program duration now in the Department of Defense, 
which lasts years and years and years, we are not going to be 
the most modern military.
    So it is not just a matter of saving money; it is a matter 
of being the best. And the word ``agility'' is a perfect one.
    Back when that was written, it was even apparent then, 15 
years ago, that the era in which all the technology of 
consequence to defense was developed within the Department of 
Defense and within the United States, it was even apparent then 
that that era was coming to an end.
    Now a lot of technology of vital importance to defense is 
out there in the world. We need to be the fastest and the first 
to have it in order to keep up with and keep ahead of all our 
opponents. So I couldn't agree with you more.
    The Chairman. And let me ask about one other area of 
reform.
    A number of people are concerned about the reductions in 
end strength for especially the Army and the Marine Corps. And 
yet as one looks at the Pentagon, you haven't seen commensurate 
reductions in the number of folks who work there.
    And so there is interest, including from a number of people 
who come out of the Obama administration, to streamline the 
bureaucracy in the Department and thin out some of those layers 
that add cost and time to--that affect this agility we were 
talking about.
    Is that something that is on your radar screen, and is 
there a chance we could work together to give you some 
authorities to move folks around but have the effect of 
thinning that out and lowering the bureaucratic hassles?
    Secretary Carter. I would very much welcome and appreciate 
your help in that regard.
    Now, a lot of that is on us, and we need to do it 
ourselves. But in many cases, we would benefit from legislative 
help.
    But if--as you used the example of end strength, if all we 
are doing in a period of straightened budget is shrinking tooth 
and the tail remains the same size, that is an unjustifiable 
way of managing the place.
    So we have gotta, gotta, gotta get after these 
headquarters, these offices that were set up once upon a time, 
seemed like a good idea at the time, but have lost their 
purpose or lost their way or lost their vitality, and we need 
to be aggressive with ourselves and rigorous.
    So I would very much appreciate your help and working with 
you. And I don't know who those people are that you said, but I 
associate myself with them, if that is the----
    The Chairman. Well, I think there is interest on that on 
both sides of the aisle, again, and we look forward to working 
with you.
    Mr. Chairman, let me just ask you one question. When you 
were kind enough to be with us at our retreat, and you said we 
could quote you--that the President's budget level was the 
lower ragged edge of what it takes to defend the country.
    The President has requested $561 billion in base, $51 
billion in OCO [overseas contingency operations] for a total of 
$612 billion when you put it together.
    Is it still your opinion that that is the bare minimum. I 
don't want to put words in your mouth, but how would you 
describe how that figure, $612 billion, meets the national 
security needs of the country for the coming fiscal year?
    General Dempsey. Thank you, Chairman.
    As I mentioned at our retreat, or your retreat where you 
were kind enough to invite me, the strategy that we developed 
in 2012, if you recall, we submitted a budget to support that 
strategy in 2012 and then in 2013 and 2014, and the budget has 
been continually pushing down from that level at which we said 
we could achieve our strategy at moderate risk.
    We are now at the point where the risk to the strategy has 
increased. And what we are reporting to you, as a group of 
Joint Chiefs, is that we have reached the edge of that.
    So anything below that level of budget support, however you 
choose to knit it together for the total amount, will cause us 
to have to adjust our strategy. It is as simple as that.
    Some of those adjustments will not be life-altering, if you 
will, or security-environment altering, and some very well may 
be.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    In line I think with the discussion that we are going to 
have today, could you go back and be a little more specific in 
terms of not just the authorities that you need but 
flexibility? How can we get that best value for the dollar that 
you were suggesting? What is it that--what is it that the 
Congress has denied, actually, in terms of that flexibility in 
the past, and what would you like to see? How can we best work 
together on that?
    Secretary Carter. Well, thank you, and I will give you some 
examples. And I realize this is not a popularity contest, in 
terms of these proposals. Because they are tough things to do. 
And that is why there has been debate over them.
    Mrs. Davis. That is why you are here.
    Secretary Carter. I think that is why we are all here. We 
have to do what we have to do for the country's defense. But it 
is tough.
    And it falls into three categories. And I am using the 
categories that I have learned from the chairman. One is in the 
acquisition area, where we need to have the discipline to stop 
things that aren't working. To not pretend that something is 
going to work when it isn't, just to keep going. That we can 
afford it, when we can't, just to keep going. Then we have to 
stop it and all the money on it has been wasted.
    So in the acquisition area there is a lot----
    Mrs. Davis. Is there one particular area that when you make 
that statement, that you are thinking about, that needs work?
    Secretary Carter. Yes, I--well, there is--one is the 
process and the paperwork, which is ridiculous, and which leads 
to these perverse results. Because the system can sort of keep 
suggesting to itself that it is doing the right thing.
    And the other thing is the incentives that we--remember we 
don't do anything in the Pentagon--we don't build anything in 
the Pentagon. We contract out to our excellent industry. So we 
depend upon our industry and the incentives that we give them 
that to provide what we need that are included in contracts and 
other relationship is another place that is critical to think 
about in the area of acquisition.
    Then there is compensation, how we compensate our troops, 
our retirees, families, all very important, very sensitive 
issues. But an important part of our spending.
    And then a third is the one the chairman was mentioning a 
moment ago which is kind of the overhead--the people overhead, 
the facilities infrastructure, and I know base closings are not 
a wonderfully popular thing either.
    But at some point, when the budget comes down, you need to 
make sure that you are taking away the tail the same way you 
take away the tooth.
    So I would--I organize it in those three categories which I 
think are the same ones that the chairman does. But these are 
difficult choices, there is no question about it. We can only 
do these things when we do them together. I know they are hard.
    Mrs. Davis. And, General, did you want to comment on that, 
as well? And flexibility for the service chiefs, I know that 
there is some concern that Goldwater-Nichols has created some 
constraints, and perhaps it is time to address those.
    General Dempsey. Well, speaking as a former service chief, 
the service chiefs have been uniquely limited in their 
influence over the acquisition process in terms of identifying 
requirements, and then it passes into the acquisition 
community. You know, neither side is trying to in some way 
limit the other. But there is no kind of life-cycle 
responsibility.
    So the requirements grow, and the procurement timelines 
stretch. And I will just give you an example. Many of you in 
this room probably have an iPhone, iPhone 6, I would imagine. 
Well, the first iPhone was introduced to the market 8 years 
ago. So in 8 years, we have got six variations of iPhone. That 
is not the way we deliver our information technologies.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman. Go on to other members.
    The Chairman. Thank the gentlelady.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you.
    And, General Dempsey, thank you for your service.
    And to Secretary Carter, welcome to this hearing today and 
your new leadership of our Nation and our military. And I want 
to thank you.
    I would like to start with an article that I read back in 
December this year, and then get to a question. The article is 
titled ``Down the Opium Rat Hole.'' If you have spent 13 years 
pounding money down a rat hole with little to show for it, you 
might wake up one morning and say, ``Hey, I am going to stop 
pounding money down the rat hole.''
    Unfortunately, the United States Government does not think 
that way. And when that rat hole is Afghanistan, the billions 
are essentially without end.
    Mr. Secretary, when I listen to all the threats to a strong 
military, and I have Camp Lejeune down in my district and 
Cherry Point Marine Air Station. And I think about all the 
problems we are faced with, it brings me to this question: We 
have 9 years of an obligation, an agreement, that was not voted 
on by the Congress and of course the President did not have to 
bring it to the Congress, I understand that, so I am not being 
critical, but here we are in a almost desperate situation to 
fund our military so we will have an adequate and strong 
military, and then you read articles like this, and there is 
one more that came out this week that says, this is from John 
Sopko, by the way, ``Afghanistan cannot manage billions in aid, 
U.S. inspector finds.''
    There are people on this committee in both parties, and we 
have met unofficial I with Mr. Sopko for 2 years and listened 
to him, and I am going to ask you and Mr. McCord how in the 
world can we, for 9 more years, continue to spend millions and 
billions of dollars in a country that we have very little 
accountability?
    And we had General Campbell here last week, and I was very 
impressed with him. Let me make that clear. But the point is 
that we will continue to put money down the rat hole and never 
say that it is time to stop putting money in the rat hole.
    Why in the world can't an administration, and I would say 
this if you were Secretary of Defense with George Bush or the 
next President, whomever it might be, why can't people like 
yourself, sir, be honest with the American people who pay our 
salaries, who pay for the military, and say, ``You know what? 
We need to rethink where we are. We need to have a benchmark. 
We need to say in 3 years, if this has not been accomplished, 
and we have not reduced the waste of money, then we might need 
to change our policy and start pulling out''?
    I want to ask you, sir, with Mr. McCord there, are you 
going to bring in John Sopko and these other people to tell you 
about the absolutely waste of money in Afghanistan that is 
taking away from us rebuilding our military?
    Secretary Carter. Well thank you for that, Congressman, and 
your very straightforward question. I will try to give you a 
very straightforward and honest answer. There are kind of two 
parts to it.
    One is, the effectiveness and the controls on contingency 
contracting in Afghanistan and before that in Iraq. There were 
and persist issues with contingency contracting, going back 
years now. And I know that Mr. Sopko tracks them.
    And I remember when I was Under Secretary for Acquisition, 
Technology and Logistics, the difficulties in teaching our 
people to do contingency contracting in such a way that there 
were always--that contracts were awarded properly. That they 
were overseen when they were being executed. And that was not 
happening in Afghanistan in many places.
    I think the Department has improved over these long years 
of war, but it is not perfect yet by any means. It is not where 
it should be. So I want to associate myself with your argument. 
I guess, indirectly, and Mr. Sopko's, we have got some work to 
do.
    On the strategic question of Afghanistan, I would say the 
following: I--it, to me, ``rat hole'' doesn't quite capture 
where we are in Afghanistan. I certainly hope that where we are 
in Afghanistan is that we are going to be able over the next 
couple of years to increasingly turn the security, the basic 
security for that place, over to the Afghan security forces 
that we have built in such a way that it doesn't--that country 
doesn't pose a threat to the United States anymore, which is 
the reason we got in there in the first place.
    Now that is a difficult task. General Campbell is doing it 
as well as anyone can possibly expect. And we have in President 
Ghani in Afghanistan one new ingredient, which is a very bright 
one. This is somebody who, when I visited in my first week in 
office, Kabul, the first thing he said to me was, would you 
please go back and thank Americans, and especially thank 
American service members, for what they have done here and are 
doing here in Afghanistan? That is a whole different 
atmosphere.
    And so, in partnership with him over the next couple of 
years, our objective is to stand the Afghan security forces up 
on their feet, so that we can have a very small presence there 
in the future, not the big force we have had, and leave it in a 
circumstance where it doesn't threaten us anymore. That is the 
plan we have. And, you know, you can never say a plan is 100 
percent probability of being successful but I think this has a 
high probability of being successful. And Ghani is an important 
new ingredient in that.
    Mr. Jones. Thank you.
    The Chairman. Gentlemen, we have got the largest committee 
in Congress. In order to get everybody a chance to ask 
questions, I am going to ask members to limit their time to 5 
minutes. If at any point you need to supplement and add because 
if a question lasts 3 minutes and you have got 2 minutes to 
answer it it puts you in a tough position. So feel free to add 
any that you need to at the end.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary Carter and General Dempsey, thank you for coming 
today.
    Secretary Carter, it was a pleasure working with you in the 
past and I am glad to have you back. As I mentioned in the 
service chiefs and secretaries hearing yesterday, I appreciate 
your sharing the dangers of sequestration. It is a short-
sighted policy that undermines our Nation's ability to project 
power, work with our friends and allies, and protect our 
citizens, and I hope that our Congress can show the courage to 
repeal this bill.
    Now while our Nation faces challenges across the globe we 
have made strategic choices in developing a focus in the Asia-
Pacific region. Mr. Secretary, it is my understanding that in 
many areas such as infrastructure, maintenance, when we take 
cuts today we end up paying far more in the future.
    Can you talk about areas where we would likely see 
increased future cost, if sequestration cuts funding today?
    And if you could, make your answers brief, please.
    Secretary Carter. I will give you one simple example of why 
sequestration is wasteful, as well as damaging to security. And 
that is when we are forced by the suddenness of it to curtail 
the number of things of the overall size of our procurement in 
such a way that we drive up unit costs or we prolong the 
duration of a contract. And you all know that a short-term 
contract you pay more for than a long-term contract. That is 
the kind of thing we are driven to by sequester.
    And it is obvious to anybody who has contracted with 
somebody to get their lawn mowed or something, that that is 
economically inefficient. So it is more than strategically 
dangerous as the chairman rightly said, it is wasteful, which 
is not what people want.
    Ms. Bordallo. Thank you very much. Also I have another 
question for you. Can you comment on how, broadly speaking, the 
fiscal year 2016 budget supports the strategic rebalance to the 
Asia-Pacific region?
    How important was removal of the restrictions on the 
government of Japan funds for the relocation of the Marines in 
last year's defense bill?
    And also, are you looking to activate the Guam Oversight 
Committee, which I felt was a helpful Internet tool to the DOD?
    And how is revision of the U.S.-Japan defense guidelines 
going and how important is that to our bilateral relationship 
with Japan?
    Secretary Carter. Well, thank you.
    Just the Asia-Pacific so-called rebalance is central to our 
strategy. That is where half of humanity lives. That is where 
half of the economy of the world is. And you know, one of the--
strategy means keeping everything in perspective. And while we 
are focused as we need to be on ISIL [Islamic State of Iraq and 
the Levant], Afghanistan, which is already mentioned, Ukraine 
and other trouble spots elsewhere in the world, we have to 
remember that this is where much of our future lies.
    And the American military presence there has been the 
central factor that has kept peace and stability and therefore 
prosperity going in that region. We need to keep that going--
and you mentioned Japan and the revision of the guidelines 
there. This is an extremely important development.
    And by the way, Prime Minister Abe will be visiting the 
United States shortly. This is an opportunity for Japan to 
become a--help us maintain the peace in the Asia-Pacific 
region, but the guidelines are global in scope. So it gives a 
military that is quite capable in Japan and a country that 
shares a lot of our strategic objectives and basic values a new 
way of helping us out in the region and around the world. It is 
a very positive thing.
    Ms. Bordallo. Thank you very much, Secretary. My time is 
almost out so I don't have time for the third question.
    So, Mr. Chairman, I yield back.
    The Chairman. Thank the gentlelady.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Chairman Dempsey, we--the country owes you a great deal of 
gratitude. We thank you for your service, all you have done for 
this committee and for the country.
    Mr. Secretary, we thank you for being here today and it was 
my full intention to come in here and applaud you and talk 
about how talented you were, which I believe that to be the 
case, and realize what a difficult job you have until I heard 
your opening remarks.
    And let me just ask this question, because you heard 
Chairman Thornberry mention the phrase that if we get the--
anything below the President's budget, that we would go below 
the lower ragged edge of what we need for national defense.
    Do you agree with that?
    Secretary Carter. I do.
    Mr. Forbes. And would you therefore say if we are going 
below that lower ragged edge, that it would be a crisis for 
national defense if we went to sequestration, as opposed to the 
budget the President's proposed?
    So that would be yes?
    Secretary Carter. Yes, yes.
    Mr. Forbes. Would you also say that that would be 
devastating to defense if we went there?
    Secretary Carter. Devastating.
    Mr. Forbes. Then help me with this, because what really 
took me back is when you said that you supported the 
President's position to veto any bill that didn't do away with 
sequestration, because you do understand that the President's 
position is that he would veto any bill that doesn't do away 
with sequestration, not just for national defense, but also for 
everything else.
    Do you understand that is the President's position?
    Secretary Carter. I do.
    Mr. Forbes. So then what you are telling me as the 
Secretary of Defense, you would be prepared to support a veto 
that would end up with a crisis for national defense and be 
devastating to national defense, unless the President can also 
get all the funding he needs for EPA [Environmental Protection 
Agency], IRS [Internal Revenue Service], and all the other 
nondefense items that he has proposed in the budget.
    Is that your position?
    Secretary Carter. What we need for defense, Congressman 
Forbes, is two things. We need stability----
    Mr. Forbes. And that is not my question. I don't mean to 
cut you off. But as the chairman said, I only have 5 minutes.
    I just need to have you tell this committee that as the 
Secretary of Defense you are coming in here today and saying 
that unless the President gets a full sequestration taking off 
the limits of spending that he has on EPA, IRS, and other 
nondefense matters, you would rather have a crisis when it 
comes to national defense funding?
    Secretary Carter. No, that is not----
    Mr. Forbes. Then would you support a bill that this 
committee would pass that would do away with sequestration for 
national defense only?
    Secretary Carter. No, the President--no, I would not.
    Mr. Forbes. So then you would support----
    Secretary Carter [continuing]. I will tell you why. I will 
tell you why. We need relief from sequestration across the 
board. Every other manager of an agency in the government----
    Mr. Forbes. Mr. Secretary, you are not managing all these 
other agencies. You are coming in here today telling us that 
you would be prepared to accept a crisis for national defense 
unless the President gets the funding he needs for EPA or the 
Internal Revenue Service or all these other programs he has 
across the country?
    Secretary Carter. No, I--no, Congressman. I take a view of 
national defense and national security that is--that takes into 
account the fact that to protect ourselves and as part of 
security, we need the Department of Homeland Security----
    Mr. Forbes. I am not saying that. But I am saying you don't 
necessarily need the Internal Revenue Service----
    Secretary Carter. We need our law enforcement agencies.
    Well, I think each of those budgets can be looked at in 
their own terms.
    Mr. Forbes. Mr. Secretary you are the expert on defense and 
what we need is that testimony today.
    And what bothers me is when you will come in here and say 
that you would rather have a crisis in national defense, which 
is what the President is saying, by the way, than to cut or 
have a cap on any nondefense spending that could be in anywhere 
else in the government. And I just find that a travesty.
    Let me just say this----
    Secretary Carter. I think what the President is saying, 
Congressman, and which I agree with, is that we need relief 
from sequester across the board. It is no way to run----
    Mr. Forbes. But you are the expert on defense.
    Secretary Carter [continuing]. A government----
    Mr. Forbes. And we may argue on IRS or EPA but what we need 
is when you come in here as Secretary of Defense to tell us 
that you are not willing to accept a crisis in national defense 
if you can't get everything you want with the IRS or EPA, some 
of these other funding programs.
    And just to put it on the line, when you talked about the 
flexibility that you need in Department of Defense, let's just 
recognize also, that sometimes Congress has to hold up 
flexibility. If we would have given it to the Pentagon in the 
1980s we wouldn't have stealth platforms, we wouldn't have 
precision munitions, we probably wouldn't have jointness and 
also sometimes when you talk about these outside cuts to 
facilities, remember what we did to the Joint Forces Command.
    Oh, we cut that down and said we are going to save all the 
money. All we did is take all those jobs and centralize them in 
the Pentagon and the Joint Staff. So we need to make sure, Mr. 
Secretary--and I just say this with all due respect, that we 
are dealing with a crisis we have in national defense. That is 
what this committee should be about. That is what the Pentagon 
should be about. And we shouldn't have to hinge all of that on 
what happens to the Internal Revenue Service or the EPA.
    And, with that, Mr. Chairman, I yield back.
    The Chairman. Ms. Tsongas.
    Ms. Tsongas. Thank you, Mr. Chairman.
    And welcome, Secretary Carter. It is great to have you, and 
I look forward to working with you, and have appreciated your 
insight and knowledge just in the brief testimony you have been 
able to make today.
    And, Chairman Dempsey, it is always great to see you. And, 
as we may not see you again, I just want to reiterate again how 
much I have appreciated your always candid, forthcoming 
testimony before this committee.
    And just to address briefly the issue of sequestration, I 
too share the view you have, Secretary Carter, that we have to 
deal with it across the board. As we know, how we defend our 
country does not exist in isolation. I come from a State that 
is heavily invested in education and it is that educated 
community that leads so often on developing all the 
technologies that all the service chiefs have acknowledged are 
very important to how we move forward in defending our country 
as we remain very agile.
    So, to protect our country as well as we want to, we have 
to invest in our minds as much as anything else. So it all is 
all very much linked. And I appreciate your acknowledging of 
that.
    But 2 weeks ago, this committee had the chance to discuss 
the proposed AUMF [authorization for the use of military force] 
against ISIL with General Austin and Secretary Wormuth, so I 
thank you both for your presence here today to continue that 
discussion.
    And at that hearing, I asked General Austin about the 
complexity of the challenges that the United States has to 
address to successfully confront ISIL. I liken it to a 
multidimensional chess game. And nowhere is that more apparent 
than in Tikrit, where recent news reports detail Iran's 
involvement in training and equipping Shia militias in support 
of the Iraqi government efforts to retake that city.
    Iraq's engagement, I think, highlights the complexity of 
the challenge, rooted as it is in a highly complex region, and 
underscores the need for Congress to weigh in and think through 
the assistance that we are providing to the Iraqi government as 
well as other partners.
    So with that in mind, Secretary Carter, how does Iran's 
engagement with the Iraqi government and its military efforts--
the Iraqi government military efforts to confront ISIL 
complicate our efforts to ensure a pluralistic order? As we 
know, it was the Maliki government's unwillingness to create an 
inclusive governing structure that created the opening for 
ISIL. So as the Iraqi government seeks out Iran's help and is 
receiving it, how do you see it complicating our efforts going 
forward?
    And then, General Dempsey, how does it complicate our 
military efforts?
    Secretary Carter. It can complicate our efforts, and that 
is why we need to watch this very closely, because, as you say, 
it is sectarianism which brought the Iraqi security forces to 
the low point that led to their rout last summer in the first 
place. And we are supporting a government of Iraq that is 
multi-sectarian and that encompasses the entire country. That 
is our preference.
    And so, our preference is that all operations to combat 
ISIL, which we obviously support, are conducted with the 
knowledge and authority of the Iraqi government. And we support 
them in doing that. When there are others who are conducting 
operations without the authority of the Iraqi government, that 
is the face of sectarianism rising again in Iraq.
    Ms. Tsongas. So, I am sorry, are you saying----
    Secretary Carter. And we are very concerned about that.
    Ms. Tsongas. So, are you saying what is happening in Tikrit 
is without the authority of the Iraqi government, independent 
of it?
    Secretary Carter. No, I am not. But you are asking me would 
I be concerned about a purely sectarian military activity 
there, and I would be concerned about that. And I am concerned 
that the Iraqi government be controlling and the Iraqi security 
forces be controlling in directing all military activity on 
Iraqi soil, and that is why the nature of some of the militia 
activities and so forth is so concerning to us.
    Ms. Tsongas. General Dempsey.
    General Dempsey. In terms of how it complicates things 
militarily, you know, we are building the Iraqi security forces 
to contribute to inclusivity. And they are being the kind of 
internal media blitz by the Popular Mobilization Forces has 
made them popular because they did succeed in pushing back on 
ISIL in and around Tikrit, although they are not having as much 
success as I think they initially reported.
    So we have the issue of trying to make sure the Iraqi 
security forces remain the force for stability in the future 
and not this mobilization force.
    And, secondly, there is just an issue of deconflicting 
space--air space, ground space and decision space. And so, yes, 
it does make it complicated.
    Ms. Tsongas. Thank you.
    My time is up.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you for being here today. General Dempsey, your 
service to our country, we appreciate so much and wish you well 
in the future.
    And Secretary Carter, best wishes for success in your 
position.
    I am very pleased, in a way, to see the concern being 
expressed about defense sequestration, because many of us have 
been talking about this for the last 2 years. And we have--and, 
in particular, General, thank you for pointing out the issue of 
readiness, putting our troops at risk.
    And this needs to be addressed, but it should also be put 
in the context that actually Bob Woodward, the very respected 
journalist, in his books, ``The Price of Politics,'' identified 
that this was the President's policy. And so, I believe that I 
hope he makes every effort to change that policy because the 
consequence was revealed yesterday by Secretary James, and that 
is that we will have the smallest Air Force since it was 
created in 1947, the smallest Army since 1939, the smallest 
Navy since 1916.
    I believe the American people are at risk and this needs to 
be addressed. And it should be pointed out, and I don't want to 
finger point, and we don't need to get to that, but the facts 
are clear. The House Republicans twice voted to address defense 
sequestration, but it was never taken up by the former U.S. 
Senate.
    As we look at the world today, I am very concerned. General 
Jack Keane testified earlier this year about the spread of 
radical Islam across North Africa, Central Africa, the Middle 
East, Central Asia. And I am just so concerned that safe havens 
are being created, which can attack the American people. And in 
light of that, in fact, Boko Haram last week, Mr. Secretary, 
indicated that they would be a part of ISIL, Daesh [Arabic 
acronym for ISIL]. What is our policy to address this 
particular situation in Central Africa?
    Secretary Carter. Well, you are--as you say, the ISIL 
phenomenon is metastasizing. There are groups, and Boko Haram 
or some parts of Boko Haram may be one of them, that are 
rebranding themselves as ISIL, joining ISIL, getting a new 
lease on life by affiliating with this movement.
    And it is the ability of this movement to spread through 
social media, to motivate younger members of groups that 
already existed, radical groups that already existed, but whose 
younger members are particularly attracted to the ISIL 
ideology, that makes it so dangerous and makes it so important 
to combat it wherever it arises.
    Mr. Wilson. And I--has there been any progress on releasing 
the kidnapped young girls in the region?
    Secretary Carter. You are speaking of the ones that were 
kidnapped some time ago.
    Mr. Wilson. Yes, by Boko Haram.
    Secretary Carter. Yes, I think the best I can say about 
that in here is that we continue to assist in trying to locate 
them and return them to their homes. But that that effort still 
continues.
    Mr. Wilson. It is such a clear indication of the barbarity 
of the people that we are facing.
    I want to commend you in regard to your visit to 
Afghanistan. You expressed concern about a drawdown and how it 
should be conditions-based, and then action has been properly 
taken.
    What are the conditions that you are looking at in regard 
to the drawdown?
    Secretary Carter. There are conditions on the ground in 
terms of the strength of the Afghan security forces, the 
performance of those Afghan security forces. They are 
conducting operations, as we speak, in the Helmand Valley, 
which are very impressive and unprecedented in the scale and 
complexity of an operation that the Afghan security forces do 
by themselves. They are absorbing enablers, and so they are 
beginning to--the Afghan forces--operate independently. And 
that is one set of conditions that are very important.
    Another one I mentioned earlier is the successful creation 
of a national unity government with President Ghani and CEO 
[Chief Executive Officer] Abdullah--their willingness and 
ability to do that and what that could mean for the political 
development and coherence of Afghanistan.
    So there are both things at the military level over there 
and things at the political level, both of which are change--a 
very different circumstance from a year ago or 2 years ago.
    Mr. Wilson. Thank you very much.
    The Chairman. Thank you.
    Ms. Duckworth.
    Ms. Duckworth. Thank you, Mr. Chairman.
    And General Dempsey, I join my colleagues in sending you 
warm wishes your way and thanking you for your many, many years 
of serving our great Nation.
    Mr. McCord, I would like to chat with you a little bit 
about the proposed budget that is upcoming. The House Budget 
Committee chairman has proposed boosting the fiscal year 2016 
defense budget with an increase of OCO allocation. Is an OCO 
dollar just as useful for the Department as a base budget 
dollar? In other words, should there be limitations on OCO 
funding that Congress needs to be mindful of?
    Secretary McCord. Congressman, both dollars are useful to 
us if they are provided for the purposes for which, you know, 
they are intended and needed. We don't need $36 billion or $38 
billion extra OCO. We need that money in the base budget, but 
they are both useful to use and both have restrictions in law 
and in regulation.
    Ms. Duckworth. So if you had your druthers, you would 
rather have that--those dollars be in the regular budget as 
opposed to OCO funding? Is that correct? Mr. Secretary, do you 
want to speak to that?
    Secretary Carter. Absolutely. That is where we asked for 
it. That is where we need it. That is where we have identified 
the needs. And that also, and this is very important and this 
gets back to the earlier discussion of sequester, if it is in 
the base budget, it is the base upon which we build our future 
budgets. And we need stability. We need a horizon so that we 
know what our budget is going to be not only this year, but in 
years to come. Otherwise, we can't spend it efficiently and we 
can't spend it strategically.
    So that is--we need that kind of horizon. And sequester is 
what robs us of that. And that is why it is bad in a managerial 
sense for anybody who has their budget sequestered.
    Ms. Duckworth. General Dempsey, do you want to speak to 
that and perhaps its effect on readiness?
    General Dempsey. Well, as you know, we have been trying to 
dig out of a readiness hole. We said 3 or 4 years ago that if 
the wars in Iraq and Afghanistan ended then, it would take us 3 
or 4 years to recover our readiness. Because we were ready for 
10 years for a particular kind of conflict, which you know 
better than most. And so we had to kind of recapture our 
credentials for other kinds of military missions, to include 
high-end.
    And sequestration when it hit us last time, readiness tends 
to suffer a deeper impact because you have to go get the money 
where you can get it. And you can't--in some cases, you can't 
get it in manpower. You can't shed it quickly enough. You can't 
shed excess infrastructure quickly enough. You sometimes can't 
terminate contracts because of the penalties involved.
    You end up taking more than you should out of readiness. 
So, yes, I do think readiness always suffers more than we 
think.
    Ms. Duckworth. Thank you.
    Mr. Secretary, I, you know, I share the concerns of my 
colleagues and other defense officials in terms of the 
detriment of sequestration. But I also am interested in 
implications for money that is also spent in wasteful and 
inefficient ways. Specifically, I am thinking about the fact 
that we really don't know the kind of money that we are 
spending when it comes to service contractors. And there is 
still yet to be enterprise-wide contract manpower reporting 
application in DOD. Under your own documentation, I believe the 
goal was to have 95 [percent] compliance by 2018. I don't think 
you are probably going to make that goal.
    So despite the numerous commitments from senior-level DOD 
officials, can you tell me when you will re-start work on the 
ECMRA [Enterprise-wide Contractor Manpower Reporting 
Application]; when you are going to use accepted Army 
methodology; and when will you be insisting on compliance from 
the components and agencies to ensure that inventory is used to 
inform and review decision-makings on taxpayer dollars spend in 
the Department?
    Secretary Carter. Well, thank you for that. And some of the 
detail I will have to supply to you separately.
    Ms. Duckworth. That is fine.
    Secretary Carter. But the general point that you are 
raising is our tradecraft and excellence in the acquisition of 
services. And I will just say something for everyone's benefit 
that you know, which is half of the money that DOD contracts is 
not for goods. It is for services. And so as we talk about 
acquisition reform and improving our game, we need to improve 
how we acquire services as well. And the initiatives you cite 
are some of the ways in which we are trying to improve our 
performance and our tradecraft in the acquisition of services 
because that is half of our spend.
    Ms. Duckworth. Right. And I will give you that--or the 
question for answering on the record.
    Secretary Carter. Will do.
    Ms. Duckworth. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Secretary, Mr. Chairman, thank you for being here. 
Thank you for all your hard and diligent work.
    Mr. Secretary, welcome. We are all very pleased and very 
happy that you are in your position. You do have very difficult 
times and issues as the chairman was indicating in the world 
view that we see in front of us.
    We need some plain answers and talk on the issue of this 
budget. Chairman Dempsey, you and I as you were walking in had 
a brief conversation about this. So let me tell you where we 
are and then tell you why we need your help.
    Right now, the President had submitted a budget that had a 
base amount of $561 [billion] and our Budget Committee is 
currently marking up a budget with a base of $523. They are 
indicating that they want to make up the difference to that 
jagged edge of the lowered number, as you said, Mr. Chairman, 
by OCO, so that the aggregate number, as you said, Mr. 
Chairman, would be somewhere around $613.
    You sort of said, however you cobble it together, but how 
you cobble it together does make a difference. And I would like 
you guys to help us with this. I have told the Budget Committee 
that making it up with OCO does not work. Seventy members of 
the House signed a letter and sent it to the Budget Committee 
asking to honor the base budget number of $561 that the 
President asked for.
    What I have said to the Budget Committee is that they 
should ask you guys. So this is my asking you guys; help us.
    So Mr. Secretary, you said that, one, it affects because 
based upon--this is the basis upon which you build your next 
budget. That is certainly important. But we don't need to hear 
that it is an issue of ``rather.'' I think there are structural 
issues, as Ms. Duckworth was going to, that are important that 
could impede your ability to access those funds.
    One, the National Defense Authorization Act isn't marked up 
until December. Your fiscal year begins in the fall. Tell us 
why a base of $523 with an OCO of $90-plus billion doesn't 
work? Or, you are going to be facing that.
    Secretary Carter. I will start first, and then the 
chairman.
    It doesn't work because to have the defense we need and the 
strategy that we have laid out, we need the budget that we have 
laid out not just in one year, but in the years to come. And 
so, budgeting one year at a time, and this proposal is a one-
year-at-a-time thing, doesn't work for national defense. It is 
not going to permit us to carry out the strategy as we have 
planned.
    Mr. Turner. Mr. Secretary, one more thing, to jump in, 
because you have said that point before. You said that the 
President would veto a bill that legislates sequestration. If 
we pass a budget that has $523 as the base and we send you a 
National Defense Authorization Act that is a base of $523 with 
OCO of $90-plus billion, is that within that veto threat?
    Secretary Carter. I think what the President meant was that 
a budget that did not relieve sequestration--that is, give a 
multiyear perspective for the budget, he would veto not just 
for defense, but as has been mentioned earlier, for others as 
well.
    Mr. Turner. Okay. Now, getting to, Mr. Chairman, OCO, Mr. 
Secretary, there are restrictions. If we don't lift those 
restrictions in our bill, the NDAA doesn't get passed until 
December and your fiscal year begins before that. Won't you 
have a period of time, almost a quarter of a year, where you 
can't use the money?
    Secretary McCord. Yes. If this is done without an 
appropriation that is in line with it, you are right. We would 
have that problem. And I think your earlier point, too, the 
question about whether this approach being proposed by the 
House committee would be acceptable to the Senate, to the 
President; the uncertainty about whether this would even work 
for this year, is another one of the problems with that 
approach.
    Mr. Turner. So you guys have got 40 more seconds. If you 
want to tell the Congress why they shouldn't do this, you 
should do it now. Because otherwise, you will be facing this.
    General Dempsey. I am not going to tell the Congress why 
they shouldn't do it; the Congress makes its own decisions with 
my advice.
    My advice is that we need to fix our base budget, because 
you build the institution through the base budget, and you 
respond to contingencies with the fund called Other Contingency 
Operations.
    We submit a 1-year budget but in the context of a 5-year 
Future Defense Plan, and we won't have the kind of certainty we 
need over that period if the current strategy is followed.
    But look, as you heard the service chief say, you know, we 
are at the point where this is better than nothing, but 
frankly, it doesn't do what we should be doing for defense in a 
predictable fashion.
    Mr. Turner. Thank you.
    The Chairman. I would mention to the gentleman, it is going 
to be before December before we have a defense authorization 
bill this year. Senator McCain and I are determined to move--I 
know it is different than we have had in the past, but it is 
going to move a whole lot quicker.
    Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    Mr. Secretary, you said in your opening comments that you 
would never send our men and women into harm's way without the 
necessary readiness, the necessary equipment, and the necessary 
doctrine. I think you would also agree that we shouldn't send 
them in harm's way without the necessary strategy.
    I am having a difficult time in light of the 6 months 
during which we have been at war in Iraq and Syria against ISIS 
and in light of the President's authorization for the use of 
military force, or AUMF, that is now before this Congress for 
consideration.
    I am having a very hard time understanding what the 
strategy is, and I want to make sure that--as my colleagues 
have said, that we fund our military well beyond the budget 
caps and sequester levels--I agree with them there--but I 
think, perhaps more importantly, that we have the necessary 
strategy in place so that their efforts, those men and women 
serving this country and our interests overseas are not in 
vain.
    Could you answer the strategy question for me?
    Secretary Carter. Certainly, first of all, strategy is--
does take a--in addition to geographic perspective, a multiyear 
perspective and a multiyear commitment, which is why annual 
budgetary turmoil isn't consistent with our strategy in taking 
a strategic view.
    With respect to the strategy against ISIL, and defeating 
ISIL, in Iraq, the first thing I would say is that we not only 
need to defeat ISIL, we need to defeat them in a lasting 
manner. That is always the difficult part.
    We can defeat ISIL, but defeating them in a lasting manner 
means having somebody on the ground who keeps them defeated 
after we assist them in the defeat.
    On the Iraq side of the border, that is the Iraqi 
government, a multi-sectarian force organized by the Iraqi 
government. That is our strategic objective----
    Mr. O'Rourke [continuing]. To interrupt there, we will just 
take the Iraqi portion of this.
    From my understanding, based on the testimony from the 
excellent series of hearings that the chairman has brought 
before us, our strategy there largely relies on training, 
equipping, and advising the Iraqi national army. We have spent 
tens of billions of dollars doing just that from 2003 to 2010 
to awful effect. The army melted in the face of a far inferior 
enemy.
    What is different about our strategy today that is going to 
ensure its success?
    Secretary Carter. Well, it will hinge, as it did then, upon 
a multi-sectarian approach by the government of Iraq. Without 
that, it cannot succeed.
    And what happened to the Iraqi security forces a year ago 
was that they collapsed because sectarianism had taken root in 
the government of Iraq, and the people who lived in the regions 
that were swept over by ISIL were not willing to accept or 
support the Iraqi security forces, as they were then 
configured.
    They need to be configured in a non-sectarian manner--a 
multi-sectarian manner, or it won't be possible to have that 
lasting defeat of ISIL on the Iraqi side of the border. It is 
as critical now as it was last year.
    Mr. O'Rourke. Mr. Secretary, with all due respect, the 
strategy insofar as we understand it today, I think, is 
insufficient to achieving the President's aims of degrading and 
destroying ISIS, to your aims of ensuring a lasting defeat of 
ISIS. I think if we are honest with ourselves and the American 
public and the service members who will act out the policies of 
this country, if we are going to achieve those aims, we are 
going to need U.S. ground forces in Iraq and Syria.
    We cannot depend on a Syrian moderate opposition force. We 
cannot depend on the political whims of the different sectarian 
factions in Iraq. We should not depend on Iranian-backed Shia 
militias in that country as well.
    If we are going to do this, let's be honest about what it 
is going to take to do it.
    And with today's topic of the budget in mind, do we have 
the resources necessary in the President's request to support 
ground forces to achieve our tactical and strategic goals in 
Syria and Iraq vis-a-vis ISIS?
    Secretary Carter. I will answer that first, and the 
chairman may want to add something to it. We do have the 
resources to support our strategy.
    The one ingredient, very important ingredient, that you 
left out was air power, and we are applying air power in a very 
effective way in support of ground forces that are not U.S. 
ground forces but that are local ground forces, because we want 
a lasting defeat of ISIL and only local forces on the ground 
can impose a lasting defeat. And that is our strategy.
    Chairman.
    General Dempsey. And if I could, just in the interest of 
time, Chairman, I will take this for the record, because I do 
think the strategic advantage we have is the coalition, and I 
think that will eventually be the path to enduring defeat.
    But I will take it for the record.
    [The information referred to can be found in the Appendix 
on page 102.]
    Mr. O'Rourke. Thank you both.
    The Chairman. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman, and thank you all for 
being here.
    Secretary Carter, I want to start off with a shamelessly 
parochial issue.
    The AMPV [Armored Multi-Purpose Vehicle] program, which I 
know you are familiar, is replacing the M113 combat vehicle, 
which is maintained at the Anniston Army Depot. I am very 
interested in seeing the AMPV maintained at the Anniston Army 
Depot.
    Do you know who is going to make that decision and when 
about where the source of repair is going to be made?
    Secretary Carter. I do not know when that source selection 
will be made, but I will find out and make sure we get back to 
you.
    Mr. Rogers. Thank you very much.
    [The information referred to was not available at the time 
of printing.]
    Mr. Rogers. General Dempsey, based on open-source 
reporting, Russia is planning to put tactical nuclear weapons 
in the illegally seized territory of Crimea.
    What is your best military advice as to how we as a nation 
should respond to that?
    General Dempsey. Well, there are several things.
    I saw the same open-source report. I haven't seen it 
reflected in intelligence, and if I had, I would have suggested 
we would have this conversation in closed session.
    There are other things that Russia is doing that seem to be 
provocative in nature, and I think we have to make it very 
clear that things like their compliance with the INF 
[Intermediate-Range Nuclear Forces] Treaty--that there will be 
political, diplomatic, and potentially military costs in terms 
of the way we posture ourselves and the way we plan and work 
with our allies to address those provocations.
    So I have seen it. It concerns me greatly. I certainly 
would counsel them not to roll back the clock to previous 
experiences, and I have had those conversations with my 
counterpart.
    Mr. Rogers. Great.
    And this would be for Secretary Carter. I was very pleased, 
a couple days after you were approved by the Senate for your 
new position, to see you publicly announce that this INF Treaty 
violation by Russia can no longer be tolerated without some 
sort of response.
    I am curious. How much longer do you think it will be 
before we do provide some sort of response to that violation, 
that continued violation of the INF Treaty?
    Secretary Carter. Our response is twofold.
    One is to--a diplomatic one, which is to try to get the 
Russians to come back into compliance with the INF Treaty. Not 
my responsibility, but an important part of it.
    But on the military side, we have begun to consider--and I 
think this--what our options are, because the INF Treaty is a 
treaty, meaning that it is a two-way street. We accepted 
constraints in return for constraints of the then Soviet Union. 
It is a two-way street, and we need to remind them that it is a 
two-way street, meaning that we, without an INF Treaty, can 
take action also that we both decided years ago it was best for 
neither of us to take.
    So we are looking at our alternatives in the areas of 
defense against the systems that they might field in violation 
of the INF Treaty, counterforce options and countervailing 
options.
    All of those are available to us. We are looking at all of 
those because the Russians need to remember this is a two-way 
street.
    Mr. Rogers. Well, I appreciate that. I would hope that one 
thing that you would consider is to modify the Aegis Ashore 
site that we are currently constructing in Deveselu, Romania, 
with the capacity to defend itself against those intermediate-
range missiles that they are illegally testing.
    Secretary Carter. Defenses are one of those, the categories 
of response that we can consider.
    Mr. Rogers. Thank you very much.
    That is all I have, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Takai.
    Mr. Takai. I thank you, Mr. Chairman.
    And welcome, Mr. Secretary.
    And nice to see you again, General. I wanted to ask a 
little bit about what is happening in Hawaii. There has been a 
lot of talk regarding the drastic reductions in Army troop 
levels, which I believe actually is contrary to the Defense 
Strategic Guidance that called for the rebalance or the shift 
to the Pacific.
    So, Mr. Secretary, does the President's fiscal year 2016 
budget request provide you with the capabilities and the 
resources to conduct a rebalance to the Pacific? And how would 
drastic reductions in this theater affect this capability?
    Secretary Carter. Well, it does provide for the rebalance, 
but I want to second what the chairman said, which is we are on 
the ragged edge of being able to satisfy all the ingredients of 
our strategy, of which the Asia-Pacific rebalance is a central 
ingredient.
    So if we don't get some budget stability and we keep doing 
things one year at a time and one piece at a time, we are going 
to have to reconsider our strategy. The way I put it earlier is 
not just the size, but the shape.
    Now, I would hope that our rebalance to the Asia-Pacific is 
something that we are able to sustain. And, in our budget and 
our multiyear budget plan, we are able to sustain it.
    But under sequester and in one-year-at-a-time fashion, as 
the chairman said, we are on the ragged edge in our strategy, 
and something will have to give.
    Mr. Takai. Okay, thank you.
    And, Mr. Secretary, the other purpose of this hearing is to 
talk about the President's requests, the AUMF requests, so I 
wanted to shift gears a little bit and talk about that and ask 
you to clarify some aspects of the request.
    In subsection (c), called ``limitations,'' it says the 
authority granted in subsection (a) does not authorize the use 
of the United States Armed Forces in, ``enduring offensive 
ground combat operations.''
    So what is ``enduring offensive ground combat operations''? 
Does this refer to the length of time in which the operation is 
ongoing, the scope of the operations, some undefined 
relationship between time and scope?
    Secretary Carter. Well, thanks. The AUMF, for me, as 
Secretary of Defense, two things are important in the AUMF. One 
is that it gives us the flexibility to carry out our campaign, 
and that speaks to the provision you quote, and I will come 
back to that in a minute.
    But the other is that it is passed up here on Capitol Hill 
in a way that says very clearly to our men and women who are 
conducting the campaign against ISIL that the country is behind 
them. That is very important to me. Both the content of the 
AUMF and that it is supported widely in the Congress.
    To get to the provisions of it, the AUMF doesn't try to say 
everything that is permitted. Instead, which is, I think, wise 
because for the chairman and me we need the flexibility to 
conduct the campaign against ISIL in the way that the enemy--
that defeating that enemy requires.
    It does rule out, using the language that you described, 
what the President has said, an Iraq- or Afghanistan-type long 
off-period of offensive combat operations. And that is, that 
language, by taking that possibility only out, leaves, to me, 
our Department, the flexibility we need to conduct the campaign 
against ISIL both practically and geographically, because we 
don't foresee having to conduct another campaign like Iraq or 
Afghanistan, and that is the one thing that is ruled out in the 
formulation you describe.
    Elsewhere, we have substantial flexibility under the 
President's formulation, and I welcome that, because I said, 
flexibility and widespread support are the two things that we 
need most.
    Chairman, do you want to add anything to that?
    General Dempsey. There is no doctrinal term in our military 
taxonomy that is ``enduring offensive.'' But it is clearly a 
statement of intent by the Commander in Chief. It does allow us 
to execute the campaign as it is currently designed.
    Mr. Takai. Okay, thank you, I appreciate that. But maybe if 
you can, for the record, provide it to us. I mean, I think it 
is important to define this provision of the request. So if you 
can provide it in writing, some clarity as to what the 
President means by ``enduring combat ground offensive 
operations?'' Thank you.
    [The information referred to can be found in the Appendix 
on page 102.]
    The Chairman. Thank the gentleman.
    Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for joining us today, and 
thank you for your service to our Nation.
    We have heard a lot about how we are going to address 
future challenges in our military. Obviously, a lot on the 
funding side, but I want to follow up, Secretary Carter, with 
some of the things you have spoken about about how we can do a 
better job in the dollars that we get in spending. Especially 
in making decisions on things like acquisition, big programs, 
making sure we have efficiency and timeliness in those 
decisions. That agility, as Admiral Howard spoke about 
yesterday, is critical.
    Give me your perspective on where you believe we are right 
now with the acquisition process. Should there be greater 
authorities given throughout the different levels of decision-
making in acquisition? And what do we really need to do as far 
as acquisition and, well, acquisition reform throughout the 
process?
    Secretary Carter. Well, thank you, and thank you for your 
interest in that subject, because it is central. And I 
appreciate the fact that this committee is committed to it.
    And I am sorry I can't give a simple answer to that because 
there are so many ways that we can improve our performance in 
acquisition. And that we need to improve our performance in 
acquisition.
    There is acquisition of services that has been mentioned 
previously. There is the requirements process and the role of 
the service chiefs. And I would--I personally welcome a greater 
role on the part of the service chiefs in the acquisition 
system. I think maybe Goldwater-Nichols went too far in the 
other direction in that regard, and we could get some of that 
back.
    There is an enormous amount of simple process that 
encumbers good sense. There is some training that is required 
to better equip our people to interact with industry and 
understand how to give appropriate incentives and partnership 
with the industry that we serve.
    There is the technology point that the chairman was 
pointing to earlier, where we have to work very hard to stay up 
with today's eight generations of iPhones. We can't take for 
granted anymore that we are at the cutting edge. We have to 
fight our way to the cutting edge again.
    So there are many, many dimensions to this. And I--this is 
something that I believe we will be continuing to struggle with 
for a long time because technology changes, the world changes, 
and we have to keep up if we are gonna continue to have the 
best military in the world.
    Mr. Wittman. General Dempsey, your perspective on what we 
can do to help the procurement and acquisition process? 
Yesterday, some of the chiefs said they would like to be able 
to have the thresholds heightened so that they can be more 
involved in that decision-making process.
    And give me your perspective too on how do we get, as 
Secretary Carter said, how do we get technology ideas, 
innovation, more quickly to the warfighter?
    General Dempsey. Well, I align myself both with what the 
chiefs said yesterday about increasing their role in this 
process because it is a very bright red line right now that 
probably needs to be dotted, as we say, so there can be much 
more collaboration across it.
    And, in terms of the technology, I think it is a 
combination of shortening our programmatic time horizons. You 
know, I recall the days of the Future Combat System, which was 
conceived in 2003. It was going to deliver in 2017, which, to 
my way of looking at it, doomed it to a graceless death from 
the moment because we--that is seven cycles of the Congress of 
the United States.
    So I just think we have to take a look at the pace at which 
we try to develop.
    I think, as the Secretary said, commercial is outpacing 
government at this point. And we can either fight that or find 
ways to conform to it.
    Mr. Wittman. Very good.
    Secretary Carter, just your perspective, it seems like what 
you are advocating is putting more authority but also 
accountability in the hands of decision-makers, so taking it 
more away from process, which, right now, is more of a process-
driven effort, to more of a person- or individual-driven 
effort.
    Kind of give me your perspective on where you think the 
balance is there, because it seems like we are too much of a 
process-driven effort today.
    Secretary Carter. I think that is right.
    We have gotten to a point where there are as many checkers 
as there are doers. And we need the doers to be enabled and 
then held accountable.
    So today, you have the worst of all worlds. There aren't 
enough doers, and when something goes wrong, you can't tell how 
it happened or what its causes were or who is responsible for 
it.
    Mr. Wittman. Very good.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Ms. Graham.
    Ms. Graham. Thank you, Mr. Chairman. And thank you, 
Secretary Carter and General Dempsey.
    First, Secretary Carter, congratulations on your recent 
confirmation.
    And General Dempsey, I want to say thank you not only for 
your generosity of time before this committee but also with new 
members in general. You have been very, very kind, so thank 
you.
    First, I would like to start, Secretary Carter, in 1915, 
100 years ago this year, the Mark V dive helmet, the trademark 
of diving, was created.
    Military divers are located at a number of military 
installations around the country, including at the Naval 
Support Activity Center in Panama City, which is in my 
district. I had the opportunity to visit recently, and it is 
just phenomenal.
    With the 100th year upon us, Mr. Secretary, I would much 
appreciate if you would support the designation of 2015 as the 
year of the military diver to honor those who are serving and 
have served and will serve as military divers for our country.
    Secretary Carter. Well, first of all, thank you for hosting 
our folks and for supporting service members in your district. 
We don't take it for granted. We are very appreciative of it.
    And that sounds like an excellent way of commemorating the 
significance of the diver community, so thank you for that 
suggestion.
    Ms. Graham. Thank you. I really appreciate that support, 
and I know that the men and women who serve as military divers 
do as well. So thank you.
    A separate question; yesterday, to both General Dempsey and 
Secretary Carter, I asked the secretaries about their wounded 
warrior care programs.
    As the Congress debates a new authorization for use of 
military force, one of my priorities is knowing that we should 
engage in military--in current or future--or military--current 
or future conflicts that our military service members go into 
this fight with confidence that this country will take care of 
them, especially the most severely injured, when they return 
home.
    So I would like to learn, what is the Department of Defense 
doing to ensure the transition from active service to the VA 
[U.S. Department of Veterans Affairs] for our most injured and 
ill service members, and what can we do to make sure that we 
identify every discharged service member who qualifies for the 
VA's Federal Recovery Care?
    And I appreciate your answers.
    Secretary Carter. Well, I will start, and then, Chairman, 
if you want to join in.
    First of all, thank you for your interest in that, too. We 
are fortunately at a period right now where the chairman, and 
I, on a weekend at Bethesda, won't find 10 new wounded 
warriors, as was the case for many years when I was serving in 
the Department and chairman was serving in the Department. And 
we are very grateful for that.
    But we can't forget that those who have been wounded will--
in many cases, they are 20 years old. They have a long life 
ahead of them, and that means we have a long obligation to 
them. And I am concerned that our country remembers the 
sacrifice of the service members in all the years that they 
will live, and I think we owe them that.
    And of course, we hand them off to the VA, and your 
question goes to, how good is the transition program for their 
care to the VA and, in general, to civilian life. That is 
something that we have done a lot of work on in the course of 
these works, but I think there is more that we can do and 
should do to smooth that transition and prepare them for the 
life ahead.
    But, you know, to me, it is really something from the heart 
that we need to--remember, these are young people. They have 
got a long life ahead of them. It can be a productive, happy, 
and wonderful life for them, notwithstanding the sacrifice they 
made at a young age.
    But we owe them the help to make sure that they can do 
that.
    Chairman, do you want to add anything?
    General Dempsey. Thanks, Mr. Secretary.
    Yes, we have actually--the service chiefs and I and with 
the help of the Department have included in our budget two 
aspects of this.
    One is the care of those who have already been wounded 
through the life cycle of their care.
    And secondly, importantly, we are taking a look at--there 
are three areas where we have developed incredible expertise, 
and we can't let it erode. One is amputees, second is burn 
victims, and third is brain injury.
    And so we are looking to the future now that we don't have 
a population, thankfully, that is suffering those injuries. We 
have got to make sure we can sustain our expertise that we have 
developed, and that is also baked into the budget as well.
    Ms. Graham. Thank you very much. And our hearts are in the 
same place.
    And I yield back the time I don't have left. Thank you, Mr. 
Chairman.
    The Chairman. I thank the gentlelady.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Mr. Secretary, it is 
great to see you in your new position.
    So three things.
    First one is this: When it comes to acquisition reform, one 
of the best ways to do it, I think, is, instead of doing a 
process or policy change, which we do every year, part of the--
if you can use technology and actually change the system 
itself.
    For instance, you have testing. It takes months to test our 
systems, whether you are talking F-35 or an Aegis test. It 
takes forever.
    There is now a programmatic line in your budget request 
that we are going to match and hopefully put more money in. It 
is a new way to test, where you can test your Aegis cruisers on 
the spot, literally on the spot as they are out there in the 
water and see if they are going to work or not.
    That has met with fierce resistance, even in SPAWAR [Space 
and Naval Warfare Systems Command] in San Diego, where they 
say, ``We have entire departments that are testing 
departments.'' That is what they do. You have entire 
departments that spend years and years simply testing. They 
aren't happy about things like this that really disrupt the 
system and cause reform just because of the nature of the 
technology, if that makes sense.
    So I would encourage this committee and you to, instead of 
just doing policy reforms, working within the system and 
technology to put in systems that reform no matter what. 
Because people can't stop it, right? If it is faster, it takes 
fewer people.
    There is major pushback, because you have literally tens of 
thousands of people within DOD and OSD [Office of the Secretary 
of Defense] who test. That is their job. They don't like it. 
That is the first thing.
    Number two, we talked about ISIS in Syria and Iraq and our 
coalition partners.
    You have Jordan, for instance. Jordan, I have talked to 
them. I have written the President letters. We have MQ-1s and 
MQ-9s in warehouses, even if--and we have the Exportable 
Predator, too, the XP. Even if you would change the ITAR 
[International Traffic in Arms Regulations] rules and State 
approves this stuff, it will take a year or two to get these in 
the hands of the Jordanians.
    You have to deal them with the qualitative military edge 
[QME] issue with Israel, because the Jordanians would then own 
those aircraft. A fix to this, I think, is taking some of the 
aircraft that we have now that are in warehouses, letting the 
Jordanians fly them and basically having the contractor that 
makes the Predator, have them recover and launch and have them 
do it.
    So then the Jordanians don't own them, there is no QME 
problem, and they are able to use that now. And they are 
requesting this now. The king has requested this, his 
ambassador has requested this, and their military liaisons here 
in the U.S. have requested this, too.
    Just want to run that by you. What do you think?
    Secretary Carter. Thank you.
    That is one of the, actually, many forms of assistance to 
the Jordanians and other coalition partners that we are looking 
at, and no decision has been made about that.
    But the logic that you describe and the possibility that 
you describe is a real one. And to get back to your testing 
thing, I think that is a very good point also. Technology can 
transform the way we do tests and therefore the ponderousness 
and the cost of the test system. So both good points.
    Chairman, you want to add anything on the----
    General Dempsey. Just after King Abdullah visited, the 
Secretary chartered his deputy to run a senior initiative group 
[SIG] to take a look at all the coalition members, because 
there are many requests coming in and there is this thing--it 
is called a warfighting SIG--that the Secretary directed that 
is getting at things like that.
    And you are right. Your letter is being addressed at the 
Department of State right now.
    Mr. Hunter. Thank you.
    And the last thing is, I am going to have a piece of 
legislation, due to all the hostages that we have had taken in 
Iraq and Syria and Afghanistan. We kind of have--it is on an 
unprecedented level to have so many hostages taken in places 
where we don't have a big FBI [Federal Bureau of Investigation] 
contingency, where the FBI can't do it.
    The FBI still has purview over hostages, anywhere in the 
world. So, even if they only have 3 agents at the embassy in 
Iraq, or 12 agents, whatever, they don't have the ability that 
JSOC [Joint Special Operations Command] has, that any of our 
special operators or just big Army, big Marine Corps, whoever.
    I think that there needs to be a buck-stops-here person. 
Your predecessor, Mr. Secretary, put in Mike Lumpkin, who was 
the ASD SO/LIC [Assistant Secretary of Defense, Special 
Operations/Low-Intensity Conflict]. He became the hostage guy 
during the Bergdahl case, at our recommendation.
    And we also recommended this, that there be a buck-stops-
here person that answers to the President. So that person, 
whether they choose the FBI or the CIA [Central Intelligence 
Agency] or the DIA [Defense Intelligence Agency] or DOD, 
whoever has the most resources to bring to bear for that 
particular hostage case, I think that is the way we should go, 
and we can maybe recover a few of these hostages, which we 
haven't done yet.
    Just wonder if you could comment on that. Thank you.
    Thank you, Mr. Chairman.
    Secretary Carter. My only comment would be you are 
absolutely right, that this hostage rescue is an example of 
something that can only be done with a whole-of-government 
approach. We need, obviously, things to be done in a way that 
is law enforcement sensitive, but in many cases, we have the 
assets or the Intelligence Community has the assets, or it 
involves Homeland Security.
    And this gets to the point I was making earlier. I mean, I 
have to take a view of security and the future strength of our 
Nation that is--that looks beyond the Department of Defense 
itself to all of the instruments of national power and 
everything that is going to carry us into the future.
    And these kinds of operations are a perfect example of 
that, where you need all those parts to come together. You are 
right, we do need a choreographer when that time comes to bring 
all those pieces together. It is very--it is essential. But the 
times in which we live require for most problems that there be 
the defense instrument and then other pieces of the government 
as well, whether it be technology, whether it be our personnel, 
or whether it be operations.
    The Chairman. Mr. Moulton.
    Mr. Moulton. Thank you, Mr. Chairman.
    And, gentlemen, thank you very much for your service to the 
country. There is tremendous bipartisan agreement on this 
committee that we need to move past the sequester. I just came 
from a Budget Committee hearing where this is being debated. 
There is a lot of frustration with the way that the budget is 
being handled at the present.
    But the question, therefore, is just how do we get there? 
How do we figure that out? One question that has been debated 
much this morning on this committee is is there a role for 
nondefense spending cut under the Budget Control Act in 
ensuring our national defense? And, I think, Secretary Carter, 
you have made your view quite clear on that.
    General Dempsey, I was wondering if you could offer your 
own comments.
    General Dempsey. Look, everything we do around the world in 
terms of security these days are done with other government 
partners. Whether it is DEA [Drug Enforcement Administration], 
[Department of] Homeland Security, FBI, CIA, and so, yes, there 
is a role on the nondefense side for security.
    Mr. Moulton. Great, thank you.
    If you could both comment on this, and I want to be just 
very specific here to try to cut through the rhetoric. What are 
the top five programs or weapons systems that you want to cut 
to take that money and better invest it in ensuring the safety 
of our troops--the safety and success of our troops on the 
ground or more broadly in our future national defense, but are 
prevented from cutting by congressional politics?
    Secretary Carter, perhaps we can start with you.
    Secretary Carter. There are more than five, I am sorry to 
say. And some of them are programs, some of them are older 
platforms.
    There has been a lot of discussion and debate around the A-
10, for example, in the Air Force, which the Air Force wishes 
to retire, not because it is not an excellent airplane but 
because their budget doesn't provide room for it anymore 
compared to other things that are higher priority. So that is 
one.
    And we--there are a number of those that we have enumerated 
in past years. And we are willing to work with people here. We 
understand--I want to find common ground with people, but we 
can't just continue to be frustrated year after year in these 
program areas or in a whole number of compensation areas, 
efficiency areas, and so forth.
    And I would be happy to provide to the committee a list, 
and it will be more than five items of initiatives that we have 
proposed in past years. This was before I was here. But that we 
thought on balance and sometimes with great regret, as in the 
retirement of older systems, we needed to do, and we have not 
been permitted by Congress to take those steps.
    Mr. Moulton. Thank you, Secretary. If you could provide 
that list, I would greatly appreciate it.
    [The information referred to can be found in the Appendix 
on page 103.]
    Mr. Moulton. General Dempsey, if you could, as specific as 
possible, outline--specifically as possible, outline what 
things would be on your list.
    General Dempsey. Well, I actually can't, Congressman, 
because--recall my role. The services build their program to 
deliver service capabilities, which then we integrate into a 
joint force. So what we submitted was actually what we believed 
we need to accomplish a joint force to execute the strategy.
    I am not in a position now to tell you that, you know, 
there were ways we could have done it otherwise. We have given 
you our best advice. And I can't help you decide how to find 
the money to do it. We need the capabilities we have described 
in our budget.
    Mr. Moulton. Fair enough. Thank you very much, gentlemen.
    Chairman, I yield my time.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman.
    Thank you both, or all of you being here. I appreciate 
that, and we all do.
    Secretary Carter, as you know, Qatar is an important 
partner of ours. We have troops stationed there, and they have 
played a role in the counter-ISIS fight.
    However, they are playing both sides. There are a number of 
U.S.-designated terrorist financiers operating openly in Qatar. 
The leadership of Hamas, a designated terrorist organization, 
openly operates there and they have been financing some very 
bad Islamist extremists.
    So my question is, how can the U.S. hold them accountable 
and how can we make it clear that playing both sides is simply 
unacceptable?
    Secretary Carter. Thank you for the question. Qatar, as 
with other of our coalition partners in the fight against ISIL, 
are being very helpful. And in the case of the Qataris in terms 
of the air base we use, indispensable.
    At the same time, not everything that our coalition 
partners do in the region are things that we support or that we 
think are constructive with respect to either the ISIL fight or 
other things.
    And so, all of our partners are--we are trying to work with 
so that we get their support for the fight against ISIL, but we 
can continue to work with them on areas where we disagree. And 
there are disagreements we have with almost all of our 
coalition partners that are helping us with ISIL. And we just 
try to work through them.
    Mr. Lamborn. But, Secretary, I understand that we may 
disagree on this or that issue, but when their policy is 
cutting against what we are trying to accomplish in that very 
fight, I have got a real problem with that.
    Secretary Carter. Well, we have problems with that too in 
some cases, and we explain that in our view that their policies 
are contradictory in that way. But we have those disagreements 
with them we try to work through while at the same time 
benefiting from their help where we can agree.
    But we don't agree 100 percent of the time.
    Mr. Lamborn. Okay, thank you.
    Also, Secretary Carter or General Dempsey, on the AUMF, I 
have a real problem with the two major limitations that the 
President has put into his proposed language: a limitation on 
time and a limitation on scope.
    Is it right to be tying the hands of this President or a 
future President in that way?
    Secretary Carter. I will start first, and then, Chairman, 
if----
    Mr. Lamborn. And if you have already addressed this, I 
apologize. I was in another committee meeting.
    Secretary Carter. No, the time part--no, no, no, I did not.
    On the scope, the proposed AUMF gives us wide scope to 
conduct the campaign that we are anticipating against ISIL.
    The time limitation has nothing to do with the length of 
the campaign. It has--it--I cannot tell you that the campaign 
will be over in 3 years. I don't think anybody can tell you 
that.
    That feature of the AUMF is included for reasons that are 
not military-related. They are related to the fact--they are 
derived from the fact that we will have a new President in 3 
years and the AUMF provides for a new President, and for that 
matter a new Congress, to revisit this issue.
    Now, that is not something that comes from the Secretary of 
Defense, or I would say from our thinking. But we understand 
and respect it. It derives from the way the Constitution 
regards use of military force as a very grave matter in which 
both the Congress and the executive branch play a role.
    So I understand that; I respect that. But the number three 
doesn't come from the campaign. It comes from our political 
system. And again, as I understand and respect that and I hope 
the result of all this is an AUMF that tells our troops that we 
are behind them in this fight.
    That is the key thing to me, in addition to having the 
flexibility to main--to carry out the campaign that will win.
    General Dempsey. Congressman, I was consulted on the AUMF 
before it was submitted to you and I believe it does allow us 
to execute the campaign that we anticipate against ISIL.
    I think what you are sensing is the difference in using 
military force against state actors, nation states, and these 
groups of non-state actors, which have a very different 
character to them.
    And I think the last time we ever were handed a completely 
unconstrained authorization to use force was probably 
Eisenhower's orders on the eve of the invasion of Europe, where 
he was told to take the Armed Forces of the United States, 
deploy them to the continent of Europe and defeat Nazi Germany. 
That is probably the last time we have had a completely 
unconstrained AUMF.
    Mr. Lamborn. Thank you.
    The Chairman. Mr. Aguilar.
    Mr. Aguilar. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General Dempsey. Good to see 
you again.
    I wanted to talk a little bit about that--the AUMF that was 
just discussed in this wide scope that you just mentioned. You 
know, one of the questions I had was the hostility.
    Would the--if the hostility--it doesn't say anything about 
the termination of hostilities at the 3-year period.
    Is it your feeling that hostilities could continue and that 
we could have actions against ISIL beyond the 3 years as 
currently written and implemented?
    Secretary Carter. Again, the 3 years is not a prediction 
about the duration of the campaign to defeat ISIS. It is a 
recognition of the way our political system works and the 
recognition that a new President and a new Congress in 3 years 
may wish to revisit this issue. As I said, I understand and 
respect that. But it isn't a prediction about the duration of 
the campaign against ISIL.
    Mr. Aguilar. General.
    General Dempsey. My military experience and judgment 
suggests that the answer of your question is it will likely 
extend beyond 3 years.
    Mr. Aguilar. Could it extend--could hostilities extend 
without a new AUMF by a new commander?
    General Dempsey. If I understood the question, the enemy 
gets a vote, as we say, on how long hostilities extend.
    I don't--I honestly don't understand the question.
    Mr. Aguilar. Sure, sure. I guess what I am trying to 
understand is, is as proposed, if Congress gives the authority 
to use military force, we have this 3-year window which you 
both said is--you know, offers a flexibility but is more a 
political discussion than anything and it allows the new 
President to make that determination.
    Absent a new discussion about AUMF, could hostilities 
continue in perpetuity beyond the 3-year window?
    Secretary Carter. I think the AUMF that the President 
proposed would require action by a new administration and a new 
Congress in 3 years, in light of the circumstances at the time, 
which we can't foresee.
    Mr. Aguilar. One of the other pieces that isn't discussed 
is detention policies within the AUMF and this was discussed in 
another hearing that this committee had as well.
    Could you provide us with examples of what U.S. forces 
could and could not do with respect to detention policies under 
the AUMF, under the proposed AUMF?
    Secretary Carter. Under the AUMF, the law of armed conflict 
and all the applicable U.S. and international law would apply 
to detention operations, as they would apply to all aspects of 
waging this campaign.
    Mr. Aguilar. General.
    General Dempsey. I have nothing to add to that, 
Congressman.
    Mr. Aguilar. Thank you.
    I will yield back, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Fleming.
    Dr. Fleming. Thank you, Mr. Chairman.
    And Secretary Carter, Chairman Dempsey, thank you for your 
service and thank you for coming for us today.
    You know, the President has said that his goal is to 
destroy ISIS. He has submitted a proposed AUMF. In the AUMF it 
says a limitation is no enduring offensive ground combat 
operations. That suggests no significant boots on the ground, 
sort of a colloquial expression that we use about that.
    So my question to both of you gentlemen is can you give 
examples of wars America has won with sustained success and 
peace without substantial ground forces in relation to the foe?
    Secretary Carter. I am not a historian so I am not sure I 
can answer your question from an historical point of view. I 
can give a logical answer, a commonsense answer to the boots on 
the ground question as it applies to a campaign like the one 
against ISIL.
    And it has to do with the--who sustains the victory after 
ISIL is defeated, because we seek not only the defeat of ISIL 
but we seek the lasting defeat of ISIL----
    Dr. Fleming. Well, if I can interrupt you----
    Secretary Carter [continuing]. That means that--if I can 
just finish the thought that means that there are local forces 
involved who control the territory after it is won back. That 
is our strategy and otherwise we have boots on the ground for a 
very long time.
    Dr. Fleming. Well, you know, many experts believe that the 
main reason why we have the ISIS problem we have today is we 
didn't have a status of forces agreement and we didn't have a 
stay-behind force.
    So again, I will ask you, Chairman Dempsey, can you name 
the wars that America has won without sustained boots on the 
ground against a significant foe?
    And I do believe--I remember that Boko Haram now has given 
its allegiance. The forces are growing with ISIS and we know 
how barbaric they are.
    Can you name some examples of wars we have won without 
boots on the ground?
    General Dempsey. We have--historically we have had several 
campaigns against insurgencies--in the Philippines, for 
example, back at the turn of the last century and generally 
our--actually our campaign strategy has been the same as it is 
today, which is to find a coalition and to find indigenous 
forces--as we used to call them, now we call them regional 
partners--to do the lion's share of the lifting because, unless 
they own it, they will often allow us to own it.
    Dr. Fleming. Well, then can you tell us who this--these 
forces are going to be?
    Now I get we are trying to stand up, again, an Iraqi army 
that fell apart because we left.
    But can you explain in other regions outside of Iraq, where 
we are getting these forces, where they are coming from and 
when they are going to take action?
    General Dempsey. I will. But I don't want to align myself 
with that we were the cause of the current crisis. I think the 
Secretary mentioned earlier that Iraq had an opportunity to 
demonstrate to its population that it would actually work on 
its behalf of all groups and failed to do that, which provided 
the environment in which this challenge arose.
    We have got a 20-nation coalition; we have--two of--members 
of which are the Kurdish forces and the Iraqi forces. We have--
we are working to develop a moderate Syrian opposition. We are 
calling it the New Syrian Forces. We are hardening regional 
allies--you heard some of that discussed moments ago--and it is 
actually--the reason that the campaign has a defeat mechanism 
is the coalition. It is not----
    Dr. Fleming. Well, again----
    General Dempsey [continuing]. Our activities.
    Dr. Fleming [continuing]. Who are the core forces, who are 
going to be the core forces, in Syria, for example?
    Again, we hear about the Free Syrian Army, which nobody 
really seems to know who they are. They were referred to, of 
course, as doctors and pharmacists before and we are going to, 
I guess, offline train them someplace maybe in Kuwait.
    But again ISIS is growing every day; they are killing a 
number of people in very brutal ways, specifically going after 
Christians and Jews, so my question is who is this core force 
that is going to go up against ISIS in the near future?
    I am still very vague on who this force is?
    Secretary Carter. Well, there are forces. It depends on 
which side of the border you are talking about.
    On the Iraqi side, there are the forces that----
    Dr. Fleming. Well, I get Iraq. I am talking--in the limited 
time I have I am talking about Syria now. Who--where are these 
forces----
    Secretary Carter. On the Syrian side, as the chairman 
indicated, we are trying to build a----
    Dr. Fleming. Trying to build.
    Secretary Carter. Trying to build.
    Dr. Fleming. So we really don't know who they are. We don't 
know the size.
    Secretary Carter. Well, the reality of the situation is, 
you have the forces of the Assad regime and you have the forces 
of ISIL, neither of which we want to align ourselves with, and 
they are the largest forces on the ground in Syria. That is the 
circumstance in which we find ourselves.
    And we are trying to create a moderate Syrian force that 
will be able to defeat them and own the future of Syria. That 
is our objective.
    Dr. Fleming. Mr. Chairman, as I yield back, I just have to 
say we are not finding out who these people are. There is no 
answer here in this question.
    The Chairman. Appreciate.
    Mr. Ashford.
    Mr. Ashford. Thank you, Mr. Chairman,
    And General and Mr. Secretary.
    Pardon my parochialism, I am just going to have to ask kind 
of a broad question related back to our people in our district, 
University of Nebraska at Omaha [UNO]. When we went to the--to 
see--I absolutely agree with you about President Ghani, and 
there is a lot of hope there, in his ability to start reforms 
in the armed services, open up discussions with Pakistan which 
are meaningful, apparently.
    It was interesting, when we went in to visit with the 
President, one of his first comments to me was how is my friend 
Tom Gouttierre. And Tom, many of you probably know of Tom, but 
he started the Afghan studies program at UNO 35 years ago, and 
is a friend of the President's and they communicate. So that 
was nice to see.
    Also, you know, the Peter Kiewit Institute at University of 
Nebraska at Omaha is doing research into ISIS and has had--in 
fact had been doing the research prior to June of last year. 
And the Ebola work done at the University of Nebraska Medical 
Center, and is pretty significant. And we are very proud of all 
that.
    Having said that, I guess my question is, when I visit 
those institutions and talk to the principals, it is clear that 
not just the University of Nebraska, clearly, but all over the 
country, there are partners at that level who are 
sophisticated, significant partners in our efforts in the 
Mideast.
    And would you comment on that, on how you foresee those 
partnerships continuing to develop and evolve and move forward?
    Secretary Carter. Well, it is critical, because we depend 
for our technology, all the research and development that 
underlies our system, we depend upon private institutions to do 
that, whether they be our universities, excellent universities, 
university-affiliated R&D [research and development] centers, 
in industry.
    I always have to remind people, we don't build anything in 
the Pentagon. This isn't the Soviet Union. Our way of doing 
things is not to do it in the government, it is to contract 
with private entities, because we think that is the best way to 
stay up with technology and to get excellence. And that is how 
we--and so, we depend upon those institutions, our great 
university systems, our great laboratories, and our great 
defense industry to make us the best military in the world.
    Mr. Ashford. I just--I think that is absolutely right. And 
I think it does differentiate us from everywhere else in the 
world, really. And, you know, we are proud of what we have 
contributed in Nebraska, obviously, but every State has similar 
experiences.
    One other--and thank you for that answer.
    One other--this goes back really to Congresswoman Graham's 
question, and this is something that I am trying to figure out. 
Your comment about transitioning the military back into 
civilian life and the role of the Veterans Administration, I 
don't necessarily want to comment on that, but I know in 
Nebraska, we have had, as most--a lot of States have had, this 
infusion of new veterans, obviously, with distinct problems 
that are somewhat unique, are unique to a great degree to the 
Middle East, and the higher degree of disability claims and all 
of that.
    And I know what we are trying to think about doing in 
Nebraska, in Omaha and Sarpy County, where Offut [Air Force 
Base] and STRATCOM [U.S. Strategic Command] is to think about 
developing sort of outpatient clinics, because we are seeing a 
real need of the veterans coming back now, the military coming 
back now and needing that sort of that outpatient in the mental 
health area, women's health issues that are not being addressed 
in the traditional mode.
    I don't actually need a comment on that because that is a 
different department, but if you have any thoughts on that, 
kind of the new way of delivering health care.
    Secretary Carter. I would only echo something that the 
chairman said, which is that by sad necessity over the last 
dozen years, we have learned a lot and in a sense pioneered 
techniques in treating amputees, burn victims, very importantly 
TBI [traumatic brain injury], PTS [post-traumatic syndrome], 
and we need to make sure, as the chairman said earlier, we 
remember those lessons and that we transfer that knowledge to 
society more widely, which I think is happening in our medical 
system, including the medical system of the Veterans 
Administration.
    Mr. Ashford. Right. And I agree. And my only thought would 
be that clearly in our area of the country where we have a 
robust medical system at the university and other facilities 
is, you know, being able to develop those new options as we 
move forward is part of our strategy in the Mideast generally 
and everywhere.
    So thank you, Mr. Secretary.
    Thank you, Chairman.
    The Chairman. Mr. Gibson.
    Mr. Gibson. Thanks, Mr. Chairman. And greatly appreciate 
the panelists.
    Thank you for your leadership and commitment to our Nation.
    General Dempsey, I noted in your opening remarks you laid 
out a case for continued forward presence, put some passion 
behind that. Some of us, myself included, have really been 
arguing for thinking and acting differently, certainly 
recognizing the need for some forward presence, particularly 
with naval forces for open sea lanes and access to markets. And 
then in places like Korea, of course, there is going to be a 
need for land forces there for the near term, at least.
    But that when we rely on this, as we have really have since 
the end of the Cold War, we end up with free-rider problems, 
and we end up with friends and allies who don't fully ante up 
for what they had admitted on paper that they would do, and we 
end up with some other second-order effects.
    I have been arguing for a peace-through-strength approach 
that really puts reliance on agility, strategic maneuver, and 
particularly the restoration of the global response force 
capability, with the idea that--and of course we deal with 
nation states and we deal with transnational actors, here I am 
talking about the former, not the latter, you know, this idea 
of deterrence and deterrence really being defined by capability 
and will.
    And here is where I get to the point on the global response 
force. Now, we had the service secretaries and the chiefs here 
yesterday, and they gave a response to this. And so, I am 
interested in, from the Department standpoint, from the 
Secretary and from the chief, leadership, as it relates to 
restoring the global response force and how you see that 
factoring into our posture going forward.
    Secretary Carter. I will start, and then the chairman. We 
do have something called the GRF, the global response force, 
which we provide very carefully for just the reason you 
describe, namely, it is the most ready force, it is the one 
that has the greatest deterrent value, because it has global 
reach and it is highly ready.
    And one of the things that is concerning about our whole--
this whole budget drama of sequester and so forth year after 
year and its effect on readiness is that if it continues in the 
way that it is, it is going to affect our readiness, even at 
the GRF level. And that is not good for deterrence. It is not 
good for the picture of American strength that is so necessary 
to avoiding conflict in the first place.
    General Dempsey. Congressman, you have touched on two 
things that are actually near and dear to my heart. One is the 
GRF. We do have to restore its readiness. There are times when, 
of late, because of increasing demand and reducing supply, we 
have had to actually reach into it and send it forward, which 
is not the intention, but we are forced into that position on 
occasion.
    The other one is the issue of presence. You know, I think 
we have got our forward stationing about right. And what we are 
doing is looking at how we can be a little less predictable to 
our adversaries, more reassuring to our allies, and maintain 
readiness through a thing we call--we are calling ``dynamic 
presence.''
    And so, we are very much interested in pursuing that idea.
    But I will tell you, you know, sequestration actually makes 
this--both of those almost impossible.
    Mr. Gibson. I appreciate those responses.
    And to be clear, even the vision that I am laying out here 
requires the world's strongest military as a deterrent to those 
who would do us harm. And we are also--this vision also 
includes American leadership. It is just a different conception 
of power and how we would array it that would look for the 
contributions from our friends and allies I think at the level 
that we would expect.
    And also recognize the moral strength of our country as 
evidenced through diplomacy, commerce, and trade. And in the 
way that we are able to strategically maneuver our forces with 
a real capability, I believe, strengthens the hands of our 
diplomats that will allow us to, I think, reach a level of 
security that we are striving for.
    So thanks. Thank you very much, once again, for everything 
you do for our service men and women and their families. And I 
will yield back.
    The Chairman. Thank the gentleman.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman. And I want to thank 
the Secretary and general for your service and all the 
witnesses here today.
    I think when historians write the book on this 
administration, one of the overlooked achievements was the New 
START [Strategic Arms Reduction] treaty, which was ratified on 
a bipartisan basis. And you know in the wake of it we have 
heard a lot of testimony at the Seapower Committee about the 
fact that the triad is going to change as a result of the 
realignment that the treaty created in terms of the leg of the 
triad that is going to carry the heaviest burden is the sea-
based deterrence, about 70 percent, according to, again, some 
of the Navy witnesses that we have had here.
    In the wake of that, in the aging out of the existing Ohio 
fleet, Admiral Greenert, Secretary Stackley, yesterday 
Secretary Mabus, I mean they made it crystal clear that the 
Ohio replacement program is at the absolute top of the list 
because the timing, even with the President's robust funding 
for design work, which again is another reason why we should 
support that top line.
    You know really there is just no margin for delay in terms 
of making sure that we are going to be able to implement New 
START. So you know, Mr. Secretary, I was reading your testimony 
over at the Appropriations Committee and others about, again, 
we have been hearing about this for years, you know what the 
impact is going to be on the shipbuilding account.
    So last year's defense bill when we created the Sea-based 
Deterrence Fund, we thought you know really used well-
established precedent from the National Sealift Defense Fund, 
which again was an effort to take pressure off the shipbuilding 
account for a once in a multi-generation investment missile 
defense, et cetera.
    I was just wondering if you could kind of talk with us a 
little bit about what your sort of thinking is. Because there 
is just no question that something is going to give when the 
resources are needed to build those boats in terms of the 
shipbuilding account, if it has to all come out of there.
    Secretary Carter. Well, thank you for that. And you are 
right. The triad is part of our future. It is part of our 
future planning.
    You know nuclear weapons aren't in the news very much, 
thank God. So they are not the answer to the ISIL crisis and so 
on. But they are a bedrock of our security.
    And we have to--we are going to need a safe, secure, and 
reliable deterrent as far into the future as I can see. And we 
need to provide for that.
    And the sea-based leg is an essential leg because it is 
survivable on a day-to-day basis. That has long been a tenet of 
strategic stability. It remains true now.
    And it is also true that the Ohio-class replacement is a 
very expensive proposition. Now, we are trying to get the cost 
of that down like all our other programs as much as we can. But 
it is--we have to pay that bill. And I think it is more 
complicated, as I am sure you would say also, than how we label 
the money.
    The money has to come from somewhere, and we are going to 
have to make difficult tradeoffs, particularly in the decade 
between 2020 and 2030. And that is just a fact of life if we 
are going to have an Ohio-class replacement.
    And if Secretary Mabus and Admiral Greenert said it was a 
highest priority, they are absolutely right. It is just 
something we have to do and we have to find room in the budget 
to do it. And there are going to be tradeoffs there that are 
not going to get alleviated by calling the money this or that.
    General Dempsey. The only other thing I would add, 
Congressman, is we--the Joint Chiefs and I firmly believe that 
the triad, all three legs, which as you know is 
intercontinental ballistic missiles, long-range bomber, and the 
Ohio-class replacement submarine, are necessary to make our 
deterrence credible and survivable.
    And just because it is an unfortunate happenstance of time 
that the three legs of the triad are all requiring 
modernization at some level over the next decade. But you know 
we have been kept safe. This is our strategic deterrent 
responsibility. And we are going to have to find a way to do 
it.
    Mr. Courtney. No quarrel with your comment. Again, just 
when you look at the size of the legs, it is not quite--it is a 
kind of funny looking stool because one of them is a lot longer 
than the other I guess.
    And as long as I got a few seconds left, General, first of 
all thank you for your service. First time I met you was in 
Iraq when you were in charge of retraining the Iraqi forces. 
And I know you are probably more passionate than anyone about 
trying to re-bolster that force that is over there.
    We had a National Guard unit leave for Afghanistan a few 
nights ago out of Hartford. And I just--the expectation was 
that the Reserve force was kind of going to stand down as the 
troop drawdown took place.
    And frankly, for some people it was a little jarring to 
still see National Guard forces going over there. And I hope 
you are keeping an eye on those guys because you know it caused 
a lot of dislocation for the families to have a 60-day call-up 
when I think, again, people's world expectations, thought was 
going to change with the drawdown.
    With that, I yield back.
    The Chairman. Thank you.
    Mr. Franks.
    Mr. Franks. Well, thank you, Mr. Chairman.
    First of all, Secretary Carter, some of us were a little 
bit surprised at your appointment. And I just have to say to 
you, it was a pleasant surprise. And I, for one, am very 
gratified, sir, that you are where you are. I think it is a 
good thing for the country.
    Secretary Carter. Thank you. My wife and I were surprised 
also.
    Mr. Franks. Well, as you know, producing fissile material 
is by far the most challenging component of developing nuclear 
weapons. And I know you also know that once the 4.5 percent 
enrichment level has been reached that about 75 percent of the 
work or the enrichment has been done to gain the weapons grade 
material.
    Requiring Iran to dismantle its mechanism to enrich uranium 
or produce plutonium was the centerpiece of nearly a dozen U.N. 
[United Nations] Security Council resolutions because 
essentially we considered that in many ways the whole ballgame. 
But in direct contradiction to that reality and the U.N. 
Security resolutions, Mr. Obama's interim agreement with Iran 
astonishingly provides a protected protocol to enrich uranium.
    And if you forgive the political importunity of the 
question, do you believe that an agreement of the long-term 
with Iran going forward that allows him to enrich uranium or 
produce plutonium is in the best national security interests of 
the United States?
    Secretary Carter. It is an excellent question and I think 
it is the key question for the--for such an agreement is, does 
it provide insurance against breakout and the development of a 
bomb by Iran?
    Now, I am not involved in the negotiations there and so I 
can't discuss an agreement that hasn't been concluded yet. But 
that has got to be its underlying principle. And I think that 
is the underlying principle with which the negotiations are 
being conducted. And I associate myself with the phrase that no 
deal is better than a bad deal.
    The only other thing I would say about that is for me and 
for our Department, we have some other obligations associated 
with this. One is to continue to deter Iran's other detrimental 
behavior in the region and in the Gulf, and protect allies and 
partners there to include, secondly, very importantly, are in 
critical partnership with Israel, is a very strong ally. And 
that is important. And then the third is our general presence 
in the Gulf.
    So those responsibilities which reside to us which are also 
related to Iran and Iranian behavior, those are 
responsibilities that fall on the Department of Defense and 
that we take very seriously. I know the chairman does also.
    Mr. Franks. Well, I certainly wish you the very best in 
that and everything else that you do, sir.
    And General Dempsey, let me just express--just personal 
gratitude and collective gratitude for the whole country for 
the gallant service that you have offered to the human family. 
I mean this has been an amazing thing that you have done and we 
are grateful to you.
    So with that you know I always ask you a tough question.
    General Dempsey. Let me--can I go on for a minute and 25 
seconds thanking you for the kindness that you have just----
    [Laughter.]
    Mr. Franks. I think he gauged that I have about 25 seconds 
left.
    General Dempsey, what is the current cap on troop 
developments--deployments I should say, in Iraq? I think it is 
around 3,100. And is there a justification for that troop 
level? Or is it really an arbitrary policy decision?
    General Dempsey. No.
    Mr. Franks. And do you believe in your best military 
judgment that that policy represents the surest and best policy 
to expeditiously defeat ISIS?
    General Dempsey. My military advice on the best and most 
enduring way to defeat the Islamic State in Iraq and Levant is 
through our partners, with a coalition, and using our unique 
capabilities, whether they be training or precision strikes or 
working to build institutions, so that the Iraqis, notably, 
understand they have--and other regional stakeholders who have 
more to lose and more to gain by the defeat of ISIL--actually 
are in the lead.
    And therefore, that number is not arbitrary at all. It is 
purpose-built to that effect.
    Mr. Franks. Well, Mr. Chairman, I am going to yield back.
    Thank you both again.
    The Chairman. I thank the gentleman.
    Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    And to Mr. Carter, and first of all, I want to thank both 
of you. General Dempsey, I really appreciate your service to 
our country, and particularly the uniform that you wear, the 
United States Army. It means a lot to me.
    Secretary Carter, first time I get to meet you.
    But the question I have, and I guess where I am kind of 
perplexed, is what is going on within Iraq today, where we have 
the general of the Quds force leading the charge, basically. 
And, you know, I get our reluctance to have boots on the 
ground. Because let me tell you, I mean, my kids have been 
there. So I don't necessarily want to see them go back.
    But the other--on the same token, though, I hate to see 
that Iran now has taken the lead, and particularly when you go 
back to the history in Iraq with us recently, in 2011 when I 
was there, we had five U.S. service members killed the night I 
was there by an advanced IED [improvised explosive device] 
supplied--go figure--from Iran. And now we are allowing them to 
take the lead. And, you know, you remember back, I mean, we had 
our forces in Iraq at the drawdown. We had American troops 
being killed and ambushed. And because of the status of forces 
agreement, particularly as it related to Iraq, they kept us 
from going and hunting or capturing or killing these guys that 
were killing our troops.
    We knew where they were laying their heads down at night, 
but the fact was these are the same people now that are taking 
the lead in Iraq and we think we are going to see a different 
outcome with the Iranian regime today than what it was then. 
And the pressure it is going to put on the Iraqi leaders--and 
Ghani I think is a breath of fresh air, but I don't know how he 
is going to operate within that when the Iranians are standing 
there saying, ``Listen, we are giving you back your country.''
    How do we deal with that?
    Secretary Carter. Well, it is a very good question because 
the--what defeated the Iraqi forces last summer was 
sectarianism. And if the fight against ISIL becomes a purely 
sectarian fight and not an Iraqi fight, then we----
    Mr. Nugent. But let me interrupt you, I mean, because the 
time is limited. But isn't it going to turn back into a 
sectarian fight when you have Iran providing the leadership and 
the training to the troops that are going to push ISIS back out 
of Iraq?
    Secretary Carter. Well, it is actually a complicated 
situation. In many places, the Iraqi security forces, including 
with Sunni elements and the support of Sunni tribes, are 
participating in the recapture of ground. In other places, it 
is our air power and Iraqi security forces entirely.
    In Tikrit, you are right. There is a heavy presence of 
Popular Mobilization Forces which are Shiite in sectarian 
orientation and getting some support from the Iranians. And 
that is concerning to us. So it is a very mixed picture. But 
the side that we are on is the side of the Iraqi government 
operating on a multi-sectarian basis. And that is the only way 
in which we are going to achieve success.
    Mr. Nugent. I don't disagree with that, but, you know, when 
you talk to the forces that were there in place in 2011 and the 
training that we did for the Iraqis, it was pretty evident then 
that we had some very, very good brigades within the Iraqi 
military, and then we had some that were the sectarian split-
off that were incompetent.
    And I think that is what we saw, you know, happen. I think 
that is kind of the remarks we have heard is that having an 
enduring force there would have prevented it, I don't know, but 
we would have had a much better chance of preventing it had we 
been there to train and assist and keep the pressure on the 
Iraqis at the time. And I just want to make sure we don't do 
the same now in Afghanistan.
    Secretary Carter. I will say something about Afghanistan, 
and then maybe the chairman wants to say something about Iraq.
    We have fortunately at the moment a very different 
situation in Afghanistan, namely a bilateral security agreement 
in place that is welcomed by the government of Afghanistan, and 
a partner in the government of Afghanistan in the national 
unity government of Ghani and Abdullah that is not sectarian in 
nature; that is welcoming of the American assistance and the 
American training.
    So it is a very different situation from--Iraq and the 
reason why, as I said earlier, we may well be achieving our 
objectives in Afghanistan in a way that a few years ago when I 
was working on that campaign, I would not have predicted that 
we would get as far as we did. It is a very different 
situation, fortunately, in Afghanistan today from Iraq a few 
years ago.
    Mr. Nugent. And I appreciate your comments.
    And with that, General, I would love to hear from you, but 
I have been gaveled back and----
    General Dempsey. And I would love to chat, sir, but my time 
is out.
    Mr. Nugent. Okay.
    [Laughter.]
    The Chairman. Yep, you all are right.
    Dr. Wenstrup.
    Dr. Wenstrup. Well, thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    As I am looking at the AUMF, it says the use of special 
operations forces to take military action against ISIL 
leadership--and again, this is a proposed AUMF--does that 
include capture or is it kill only?
    Secretary Carter. It includes capture.
    Dr. Wenstrup. Okay. So, you know, my question is, we talk 
about capture and the use of all of our tenets of war, whether 
it is diplomatic, intelligence, military, economic--all those 
things. You know, I have some visions of how we could form 
multiple coalitions--our NATO [North Atlantic Treaty 
Organization]-type coalition and Middle Eastern coalition. Then 
we work together with command and control. This is good versus 
evil. I think that is the message the world should hear.
    And, you know, when it comes to holding, though, you know, 
I have some ideas about holding those we capture and how we try 
them and how we involve maybe the nation of incident, whether 
it is ISIL or the global war on terror, how we involve the 
nation of incident and the nation of origin. And are they going 
to be part of the process of those that we capture.
    So my question is, if we capture, what do we do with them?
    Secretary Carter. Well, thanks for that question. Let me 
just go back to the logic of capture. Obviously, our objective 
where possible is to capture, rather than dispatch.
    Dr. Wenstrup. Have we been capturing anyone? Have we been 
capturing anyone in the last couple of years? Or especially 
since we reengaged in Iraq?
    Secretary Carter. Well, exactly as you say. Our coalition 
partners have been capturing.
    Dr. Wenstrup. Okay, so what are we doing----
    Secretary Carter. They have been doing that and they have 
been detaining. Now, just to take Afghanistan as an example, 
these are Afghan--on Afghan territory. They are detained by the 
Afghans and subject to Afghan law.
    Dr. Wenstrup. Okay. So our special forces, for example, you 
say their mission is to capture or kill. And so if we capture, 
what are we doing with them?
    Secretary Carter. The answer is it depends on the 
circumstances and the location; the willingness of a host 
country to take custody of them, to prosecute them. I am not an 
expert on this. You have got to talk to the Justice Department 
about that and they are involved in these decisions.
    But since these are--captures are--your question concerns 
captures that take place outside of U.S. territory, there are 
laws respecting that that we obey.
    Dr. Wenstrup. So, Mr. Secretary, are we capturing and then 
hands-off, we just turn them over? Are we involved with what 
may happen? The collection of intelligence is what I am after 
here. And so, what are we doing? And if you can't answer, maybe 
General Dempsey can, what our current posture is under this----
    Secretary Carter. Well, the answer is, Congressman, it 
depends on where--the circumstances of the capture. But to get 
to the point you are making, which is interrogation and 
intelligence value that is an important value to us. And it is 
important that whatever the ultimate disposition of the 
detainee is, that we have the opportunity to interrogate and 
debrief. And that is very important to us whatever the ultimate 
disposition of the detainee is.
    And the chairman can add to that if he wants to.
    General Dempsey. Yes, Congressman, what I would do is I 
think this is probably an important enough question that I will 
have my legal team work with the Secretary's and provide you a 
longer answer for the record.
    [The information referred to can be found in the Appendix 
on page 101.]
    General Dempsey. But I will say in places where we are in 
support of the host nation, for example in Iraq, we are 
literally in support of them. So they will do the capture 
operation, they will give access to the prisoners for us to 
conduct the kind of interrogation you describe as well as 
sensitive site exploitation, which is where you get even more.
    Where someone is a direct threat to us, either U.S. persons 
and facilities or to the homeland, we actually have conducted 
operations with the Department of Justice represented and those 
individuals--there has been a handful, have been brought back 
to this country for trial.
    Dr. Wenstrup. Thank you, I appreciate that answer.
    Can I ask you, if you could, Mr. Secretary, to finish this 
sentence for me.
    And the sentence is, publicly stating that we will not use 
ground troops, although I may agree with the policy of using 
other troops, but publicly stating that we will not use ground 
troops is a good idea because--
    If you could finish that sentence for me?
    Secretary Carter. I have got--I am not sure what you are 
getting at. I don't----
    Dr. Wenstrup. I am wondering why we want in our AUMF to say 
what--that we will not use this entity that we have?
    Why is----
    Secretary Carter. Oh, the AUMF--well----
    Dr. Wenstrup. Even if I am not in favor of using them, why 
would we say that?
    Secretary Carter. What the AUMF says is that in the 
campaign against ISIL, we have a very wide range of authorities 
to wage that campaign, including those that we anticipate are 
necessary to conduct the campaign--and there is one limit to 
that, which is a Afghanistan or Iraq-like long ground campaign. 
That is not foreseen and so the AUMF does not request the 
authority to conduct that.
    Dr. Wenstrup. That doesn't really explain to me why it is a 
good idea. But I thank you for your answer and I yield back.
    The Chairman. Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    Gentlemen, thanks for being here.
    Mr. Secretary, in follow-up to Representative Wenstrup's 
question, it just brings back to my mind this issue of GTMO 
[Guantanamo Bay Naval Station], when we are talking about 
people taken on the battlefield, people taken for questioning, 
intelligence gathering, do you support the President's plan?
    I just came back from GTMO a couple of weeks ago, carried a 
lot of legislation since I have been here in a very short 
amount of time on the issue of GTMO.
    Do you support the President's proposal to close GTMO by 
the end of this year and transfer those terrorists back to this 
country, to U.S. prisons?
    Secretary Carter. Thank you for that question. I don't 
think the President has a plan to close GTMO and return all the 
detainees to this country by the end of this year because there 
is a law that prohibits that. The President does have the 
stated intention to close GTMO and I am in favor of the safe 
closure of Guantanamo Bay.
    I have been there, too; I thank----
    Mrs. Walorski [continuing]. Would that include the core 
that can't be released to be--come back to the United States, 
the United States' prison system?
    Secretary Carter. Well, they have to be incarcerated in 
some way, there is no question.
    Mrs. Walorski. The U.S. prison system?
    Secretary Carter [continuing]. But it cannot----
    Mrs. Walorski. Do you--Mr. Secretary, do you support them 
coming back to the U.S. prison system?
    Secretary Carter. There has to be some final disposition--
--
    Mrs. Walorski. Is that the only option for final 
disposition is the U.S. prison system?
    Secretary Carter. A, that is an option that is available--
--
    Mrs. Walorski. What is the other alternative?
    Secretary Carter. But----
    Mrs. Walorski. What is the other----
    Secretary Carter. Just a moment.
    But it is now forbidden by law to do that.
    Mrs. Walorski. This President has been known to override 
the law. It is not that this would be breaking news.
    So do you support--not that you--what is the other 
alternative, if the U.S. prison system is not the final 
destination, what is the alternative, where would they go?
    Secretary Carter. I think that there--we need to work with 
those of you on Capitol Hill to find a lawful disposition for 
people who cannot be transferred or released safely from 
Guantanamo Bay.
    The reason why I think it is desirable to close GTMO, 
though I realize it is now unlawful to transfer people to the 
United States, is that I think it still provides a point--a 
rallying point for jihadi recruiting, and I think that is 
unfortunate. That is the reason to try to close it. But I say 
safely close it. We need to find a way----
    Mrs. Walorski. I appreciate----
    Secretary Carter [continuing]. To safely close it and that 
needs to be lawful and that has got to be done in cooperation 
with you.
    Mrs. Walorski. I appreciate it.
    As you know, Mr. Secretary, this committee is undertaking 
an investigation of the transfer of the Taliban Five from GTMO 
to Qatar in May of 2014. I am just asking, in light of the 
committee's responsibility to conduct a comprehensive 
assessment based on a review of this important subject, will 
you commit today where the previous Secretary left off to 
continue the Department's engagement in ensuring all the 
requested materials provided and to work with the interagency 
to ensure that requested information is provided in those 
limited instances in which other organizations and the U.S. 
government have an equity?
    Secretary Carter. You bet, Congresswoman.
    Mrs. Walorski. I appreciate it.
    And then my final question is, in the--our President as the 
Commander in Chief said in his State of the Union address that 
the number one threat to the national defense is climate 
change.
    General--Admiral Mullen just a few years ago said he 
believes the number one national defense issue in our Nation is 
the debt in our country.
    Do you believe that the debt this Nation is carrying, 
nearly $18 billion as we are sitting here as well, having 
budget conversations, is more of a threat to this Nation's 
national security than climate change?
    Secretary Carter. There are a number of serious dangers to 
the future of our country----
    Mrs. Walorski. I would agree with you, sir. I am just 
asking----
    Secretary Carter [continuing]. Of which----
    Mrs. Walorski [continuing]. I don't know you well. I am 
just trying to get a perspective from where you are coming 
from, as we are going to be voting on a huge leap in this 
budget, and I think the American people want to know where the 
national defense leader is coming from as well.
    Do you believe that the Nation's debt is a greater issue 
than climate change, as our Commander in Chief has stated?
    Secretary Carter. I think they are both serious problems 
and there are other serious problems that are not those two and 
that we have to deal with all of those strategic challenges at 
the same time. You are naming two of the problems.
    Mrs. Walorski. I am naming what the Commander in Chief said 
as he puts forth a budget that you guys have been defending 
here for 3 hours now.
    I am just saying he says the greatest threat to our Nation 
is climate change and we are trying to make an argument that 
says, you know, the greatest threat to this nation in trying to 
rally people and understanding is that we have an issue of debt 
that an admiral went on the record to say was a serious 
consequence and a threat to the survivability of this country.
    Did you agree?
    Secretary Carter. I think that to the extent that the 
deficit drives a budget behavior like the year-to-year struggle 
with sequester that we faced, that is a challenge to our 
national security because of the challenge to our national 
defense.
    I think we have threats around the world that are very 
dangerous to us. I think that, to get to back to an earlier 
line of questioning, the strength of our Nation depends upon 
other instruments of national power than our military power.
    I think in the long run the strength of our Nation depends 
upon our ability to educate people and to have scientists and 
engineers. There was a discussion of our scientific base 
earlier. There are many, many ingredients to making a healthy 
and productive America going forward. We need to tend to them 
all and I think we have to have balance in how we approach 
these things. So I would appeal for balance and a strategic 
view that looks at all of these issues.
    The Chairman. Thank you.
    Mr. Zinke.
    Mr. Zinke. Thank you, Mr. Chairman.
    And gentlemen, the country is in your debt.
    General, I have known you a long time and certainly for 
your service.
    And Mr. Secretary, I had not known you as long but thank 
you for taking the job.
    Having said that, this committee, I am a freshman. And 
before this committee, we have heard the testimonies of General 
Abizaid. We have heard certainly in conversations with General 
Conway that I know well and fought with in Fallujah.
    And both of them have said that--I will quote General 
Conway--``there is not a snowball's chance in hell that our 
operations alone are going to degrade and defeat ISIS.''
    And then given the recent success of Iran, certainly they 
have embedded commanders in their forces, even though it is a 
modern Shia force, which has great ramifications long term.
    And I have always been a fight-or-go-home guy. If we are 
going to fight, fight to win. I was never a flag officer; I was 
a deputy acting commander of special [operation] forces in 
Iraq, and I was a commander at SEAL Team Six. But I have 
always--in my career I have always looked at protection of our 
troops and making sure they had the right equipment, the right 
training, and the right rules of engagement to win decisively 
on the battle of field.
    And having said that, if we are to embed, as Iran is having 
success to do, and if we are going to look at General Abizaid 
and General Conway's and some of your senior leadership, then 
my concern is that if we embed, we don't just embed with just a 
few, because we have seen what happens should an individual get 
captured. He is going to die a heinous death in a cage and 
burned alive.
    So embedding is going to take a force package of relative 
weight and we are going to have to have a MEDEVAC [medical 
evacuation] because if one of our guys gets hurt, we are going 
to have to bring him out. And it is going to be at a U.S. 
facility somewhere close.
    And if our guys get pinned down for some reason, that is a 
QRF [quick reaction force]. So that is American armor, American 
forces, because we don't want another Somalia or Benghazi.
    Then we have to have, you know, a logistics arm to make 
sure our allies we are fighting with--the Sunnis and the Kurds 
directly and the centralized government--have the ammunition, 
food, fuel, everything it takes to win, because now we have 
committed and embedded.
    And my question is, do the current authorization as 
proposed, does it allow the flexibility for you, should the 
decision be made to embed the force structure I have laid out? 
Does that authorization that you are asking--does it include 
the flexibility to embed that force package to win?
    Secretary Carter. Well, first of all, thanks for your own 
service, and thanks for bringing what is evidently a great 
store of knowledge to this committee. So thanks for that.
    And the answer is yes. In fact, the President, when he 
first described the AUMF, enumerated a few things that were 
specifically permitted by it, which include many of the items 
on your list, so the answer is yes.
    Mr. Zinke. Thank you, Mr. Secretary.
    And Mr. Chairman, I yield the remaining part of my time.
    The Chairman. Thank you.
    Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair, but not least.
    I am going to talk about air power a little bit, since it 
seems like over the last 15 or 20 years, we have diverted kind 
of a little away from X-Plane technology, put it into a little 
bit different phase of different exploration.
    And now we are in a phase of flying the wings off an 
aircraft after 40 or 50 years and not going onto the next 
generation in, it seems to me to be a little quicker phase to 
stay up with technology.
    Everyone has talked about the iPhone here today, and I have 
a 16-year-old at home that doesn't know anything different than 
living with the iPhone, even though it has only been out for 8 
years.
    So in the time--in the 1950s, when we had five or six 
fighters working through the program and we worked through the 
Century series and about an 8-year program, now we are looking 
at fifth-generation fighters that will probably go through 2050 
or 2060.
    Is that a concern? Is that a concern that we can do 
something quicker? We always talk about how we acquire things 
and how we can get through the acquisition phase quicker.
    Well, if we could do that with technology, say we could do 
a sixth generation fighter today, it would be much more 
advanced than our Raptors in the air.
    But how could we do that in a quicker phase of 15- to 20-
year period and then fly them for 40 or 50 years?
    Secretary Carter. Well, thanks for that, and that, to me, 
recalls a word that the chairman used at the beginning of this 
hearing, which is agility. And if we don't have agility and our 
programs take 15 or 20 years to develop, we are not going to 
have the best military in the world.
    On the other hand--not on the other hand, but in addition, 
it is the case that aircraft remain in our inventory for a long 
time. Now, they are not the same old aircraft; they are 
continually modified, their software is changed, their 
armaments are changed, and so forth.
    But few realize, but I am sure you do, that 70 percent of 
the cost of a military system is in owning it, not buying it in 
the first place.
    And so as we talk about acquisition reform and cost 
control, as we began this morning discussing, we must pay 
attention to sustainment costs. And in the fifth generation 
aircraft, the F-35 and so forth, we are trying to be very 
attentive to sustainment costs because they are going to be the 
lion's share of the total life-cycle cost of the airplane.
    Mr. Knight. And Mr. Secretary, I do not argue with you, but 
in the phase of an aircraft, before fifth-generation, we are 
talking about armament and how we could change the aircraft. 
Some of that was with avionics. Some of that was with guts. But 
a lot of that was what we hung off the airplane.
    Today, it is changing quicker, and it is changing yearly, 
of what the advancement in aircraft can be, how we detect them, 
how far they can get into the battlefield without being seen.
    Those are the things that our young airmen are--should be 
worried about, because the advancements are coming so quickly. 
For about 50 years, those advancements weren't there. It was 
just, if we were faster than you and we could shoot first, then 
we beat you.
    Secretary Carter. I am with you, and I am very concerned 
that we keep up in the electronic-warfare field, which I think 
you are referring to in that.
    Some of our potential opponents have made advances in that 
area, enabled by the spread of technology around the world. And 
so if we are going to keep the advantage that we have 
historically had, we need to keep up in those areas. So I am 
completely with you.
    Mr. Knight. Okay. In my last 50 seconds, I am just going to 
say that if there is some way we can do this in DOD that, you 
know--companies do this all of the time. We have talked about 
one today. They talk about how quickly they can get it out into 
the field, because the quicker they get it out there, the 
quicker they make money.
    The quicker we can do that in DOD, the quicker the 
warfighter is safer or is ahead of the technological curve. And 
we have seen that with UASs [unmanned aircraft systems], with 
the young soldiers on the field where they are able to see the 
enemy where they probably couldn't see them without them 
getting around.
    So those things, I would ask that we can do something like 
that in DOD that might replicate what they do in the private 
industry.
    Secretary Carter. We have a number of initiatives, 
Congressman, in our budget that have exactly that intent, and I 
would be pleased to provide you with more information on them.
    But I think you are onto something that is terribly 
important, and it is one of the areas where we are trying to 
make investments, and we need the funding to make those 
investments.
    Mr. Knight. Thank you, Mr. Secretary.
    And General, thank you. You have helped the freshman class 
very much. I am sure you have helped everyone on this dais, but 
I appreciate your service and your commitment to our country.
    The Chairman. Ms. McSally. You are on.
    Ms. McSally. Thank you, Mr. Chairman.
    Thank you, Secretary Carter, General Dempsey. I was a 
masters of public policy graduate, so you were one of my 
instructors back in 1988 to 1990, so it is good to see you 
again.
    Secretary Carter. Wonderful. Good to see you.
    Ms. McSally. Good that we have both been able to find a, 
you know, good job to make a difference here, right?
    Secretary Carter. Well, thank you. You make me proud.
    Ms. McSally. Well, I look forward to working with you in 
future.
    I want to talk a little bit about combat search and rescue 
capabilities in Iraq and Syria. I was 26 years in the military. 
I was an A-10 pilot, just truth in advertising there, and ran 
our joint search and rescue center during Operation Southern 
Watch and then the early days of the Afghanistan war.
    So I know there are tremendous challenges in trying to make 
sure that if someone has to eject or they get shot down, that 
we are able to rescue them very quickly, also in the 
environment that we have seen with the fate of the Jordanian 
pilot, to be able to immediately be overhead to locate and 
protect them while we are moving the forces to pick them up. I 
mean, we have got to get them right away. I am sure you are 
aware of that.
    I have gotten an initial brief, and I will get a more 
detailed, classified briefing tomorrow by the Joint Staff on 
our combat search and rescue posture.
    But I am concerned, and I know maybe we will have to talk 
more classified about our response capability and our posture 
and whether it is limited by the 3,100-person-on-the-ground 
limitation, because we have got to be able to make sure, 
especially the guys flying single-engine airplanes, like the F-
16, that if they have to eject, that we are going to do 
everything it takes, and sometimes that takes tremendous 
resources on airborne alert to be able to go in and protect 
them so that we can get them out.
    So could you speak generally about that, and I would like 
follow-up probably in a more classified hearing.
    Secretary Carter. I will speak generally, because as you 
know full well--and thank you for what you did--we need to talk 
the details about this in a classified session, which we can 
do.
    But in general, it is not the 3,100 limit that in any way 
paces the search and rescue effort there; it is time and 
distance, and we are very attentive to that.
    Again, I don't want to say more here, but I am sure you can 
well imagine what I mean. Very attentive to that, indeed, for 
our air operations over both Iraq and Syria.
    Let me see if the chairman wants to add anything.
    General Dempsey. Yes, thanks, Mr. Secretary.
    By the way, Congresswoman, speaking to you about combat 
search and rescue is like talking about nuclear issues sitting 
next to a nuclear physicist. But I will do so nevertheless.
    It isn't--we are not limited--the BOG [boots on the ground] 
does not limit our ability to do combat search and rescue.
    Ms. McSally. Okay.
    General Dempsey. And you know generally where we are 
postured. My staff will articulate that tomorrow.
    We also, if we think the mission is high risk, as you know, 
we can actually put the package airborne as part of the air-
tasking order. So we are very attentive to that. But I think 
you will find the staff will ease your concerns tomorrow.
    Ms. McSally. Okay, great, thank you. I wanted to follow up 
on the A-10 issue. You mentioned it earlier. I commanded the 
354th Fighter Squadron. It's now deployed over to the European 
theater dealing with working with our allies related to the 
aggression that we have seen come out of Russia. And we also 
have A-10s deployed, as you know, to Iraq and Syria.
    But the President's budget requests mothballing 160 of 
them, and while we don't really have a suitable replacement. 
And I asked yesterday, Secretary James, if that was strictly a 
budget decision, and she said yes.
    And I just wanted to hear from you if that is the case; 
whether this is--because we have heard many different arguments 
over the last few years, quite frankly, which are all over the 
map, that if you had the resources, would you keep the A-10 
flying to its lifespan, which is 2028?
    Secretary Carter. I agree with Secretary James. It is 
strictly a budgetary issue. We are squeezed on all directions, 
and we are doing our best under--to give the country the 
defense it needs for the amount of money that we have.
    The A-10 is a very proud aircraft, and has done an enormous 
amount for us over the years. And I think we have tried to find 
common ground with those here on the Hill. And very important 
to me, which is not a money issue, is to make sure that our 
close air support from the Air Force to our ground forces is a 
real enduring capability. I am satisfied that it is. I am sure 
that Secretary James said the same thing yesterday. Chairman, 
you want to add anything?
    General Dempsey. You know, Congressman, we have got 
aircraft providing close air support from the Apache helicopter 
to the B-1. And the A-10 is in that sweep of capabilities. But 
it is, we are faced with a budget issue, and trying to make 
sure we keep enough capability that can operate both in 
contested and uncontested airspace.
    Ms. McSally. Great, thank you. My time is about to expire. 
But for the record, I do have a question I will be following up 
with. I know we are talking about making sure that women can be 
fully integrated into all jobs in the military, but I also want 
to hear whether there are deployment positions that are male-
only positions.
    We have seen some of the issues pop up at GTMO, when I 
served in Saudi Arabia. There are some specific positions that 
were male-only. So across the board, military and civilian, I 
would like a follow-up, whether you have male-only deployment 
positions for civilian and military. Thank you, Mr. Chairman.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Thank you. Mr. McCord, as promised, I want to 
come back on the audit issue, because we had two service 
secretaries yesterday who said the biggest impediment to 
achieving--to meeting the deadline in 2017 for their service to 
pass a clean audit was the Defense Finance and Accounting 
Service [DFAS] over which they had no control. Are you aware of 
the problem, and are you going to fix it?
    Secretary McCord. Thank you, Mr. Chairman. Yes. I think we 
have a lot of hard work to do on audit, and we are making good 
progress. I think you probably heard both of those thoughts, 
both those sides yesterday.
    The issue that came out--audit is very much a team sport in 
two ways. It requires the military departments who were here 
yesterday to work with service providers, which DFAS is 
probably the most important one in the Department in that 
respect.
    The second way, though, it also requires the collaboration 
of people throughout the Department, people who do audit as a 
primary function, like our DFAS folks, it is a primary 
responsibility of theirs, but it also requires the logisticians 
and the personnel community, people who don't normally think, 
``Audit is my primary job,'' to work, or we can't make it work 
because it requires information from all those systems.
    So in that respect, it is very much like if the Secretary 
were to turn to General Dempsey, to his right, and ask him to 
accomplish a task, and set up a task force, it would require 
the people at the tip of the spear, but it also requires the 
logisticians to airlift all the things that support.
    Very much the same with our audit task. It requires 
financial managers that I am in charge of, but also, again, the 
logisticians and the personnel community, the people that own 
information across the Department.
    So with respect to the DFAS issue that was raised 
yesterday, as I understand it, DFAS is an entity of itself. As 
an entity--reporting entity, it has passed a clean audit 15 
times in a row. So they are not an incapable organization in 
any way. They are also doing the contracting for audit for all 
the military departments to get people on contract to do the 
independent auditing.
    In a role as a service provider, they have had four areas 
where they have a clean audit, and have had a clean audit, 
which is their bread-and-butter areas of paying military, 
paying civilians, paying contractors, and disbursing.
    The issue that came up where they did not pass was called 
``financial reporting,'' which is the most involved, complex, 
spreads across the whole Department issue, and that is where 
the challenge lies. So they were given 10 areas, 10 areas where 
they didn't--where they were examined, and there were 9 that 
didn't pass.
    They were given 12 items to work on by the auditors. Ten of 
those will be done by the end of this year. But the other two 
will require a little more time. So I would say that this is 
why you do audits and exams the same way, again, just to make a 
military analogy, why you have an operational readiness 
inspection of a unit, to find out where you are good and where 
you are not.
    But I just wanted to say that the DFAS is a capable 
partner. They do have a problem here. But financial reporting 
is not strictly a DFAS issue only, because it is interaction of 
information across the Department, which is one of the real 
hard parts of audit for us.
    The Chairman. Mr. Secretary, all this talk about budget up 
here, and this makes a big difference. And those of us who 
believe we need to spend more on defense, if we can't improve 
the accountability for how we spend that money, it makes our 
job much, much more difficult.
    And I appreciate how many--how complex this is, but I am 
just--as an editorial comment, it makes a big difference in 
getting budget support up here if we can meet those deadlines 
for an audit. And if we can't, it undermines that effort. I 
know you know that, but it--particularly in the middle of these 
budget discussions, it is very much on my mind.
    Mr. McCord, let me ask you one other thing. You have heard 
some of the discussion about what we can use OCO for, what we 
can't. My understanding is there is OMB [Office of Management 
and Budget] guidance, and perhaps some Department guidance, 
that helps direct the uses for OCO funds versus base funds.
    My understanding, and my memory is that Congress can also 
designate OCO funds for procurement. And we bought F-35s in the 
past with OCO funds. Am I on the right track here?
    Secretary McCord. Yes, Mr. Chairman. There is an agreement 
between the Office of Management and Budget and the Department 
of Defense. I was involved in negotiating that early on in this 
administration. We felt that it needed to be a little tighter 
than it had been when we got here.
    That agreement dates to 2010, and it has got geographic 
aspects to it. Things that happened in this country, that 
country, the other country, are okay. Things that happened in 
countries not in the agreement may not be. And we have had some 
modifications to that.
    You are also correct in that Congress plays a role. In 
general, OCO funding has to be designated by both the Congress 
and the President, as OCO spending, as emergency spending. That 
is the procedure that was followed both by this administration, 
and under the previous administration as well. So both parties 
have a voice.
    And you mentioned F-35s have been an issue of contention in 
the past. In fact, just a few months ago, we requested to buy 
some F-35s to replace aircraft that were destroyed at Kandahar, 
as well as some training losses, and several of the committees, 
including this one, approved, but one did not. So there was 
division, remains division on these questions, sometimes of 
what was appropriate use of OCO.
    The Chairman. Okay. Would you do me a favor, and would you 
or your folks submit to us in writing an overview of how OCO 
works now? As y'all said, this is not the best way to run a 
railroad. And I hope that we can have a different method of 
funding the Department as we move down the many steps ahead in 
the budget process.
    If, however, we end up with a substantial amount of OCO to 
make up for gaps in the base, then I want to understand what 
all of those restrictions, administrative or legislative, may 
be, because those are things that we can obviously address in 
the authorization bill.
    I don't know how this is going to go. I just want to be 
ready, and you can help us in understanding that. I would 
appreciate it.
    Secretary McCord. Certainly will provide that information 
for the record.
    [The information referred to can be found in the Appendix 
on page 101.]
    The Chairman. Thank you. Mr. Secretary, last question I 
have got is about Ukraine. Mr. Smith has introduced legislation 
along with me that would require lethal assistance be provided 
to the Ukrainians so they can defend themselves, so they can do 
something about these tanks and armored personnel carriers that 
are pouring in from Russia.
    What we have been told in all our previous hearings from 
the administration witnesses is, ``Well, we are studying it.''
    Well, every day that the White House dithers about this, 
more equipment is pouring in for what I presume is going to be 
a renewed offensive at some point. So can you help me 
understand what the timeline is for a decision on--from the 
administration on providing lethal assistance to the 
Ukrainians?
    Secretary Carter. Yes. Thank you, Chairman. Two things. The 
first is you are right; our support for Ukraine, as it tries to 
create a place for itself in Europe, situated as it is between 
Europe and Russia, is very important. And I know you are asking 
about the military side of it.
    The part I would preface, though, is that is principally a 
political, and above all, economic challenge, because the 
economy of Ukraine is in serious trouble. So I think the 
assistance of Western countries to the economy of Ukraine is 
the most important thing. It is not my responsibility, but I 
just wanted to say I think that is the most important thing.
    We are supplying military assistance to the Ukrainian 
military. The President just made an announcement about a week 
ago about a military assistance at a number of categories, 
vehicles and so forth, that I think will be of material 
assistance to the Ukrainian military.
    There are also under consideration--and yes, it is under 
consideration--some additional categories of assistance, which 
are defensive lethal assistance. And those are being 
considered. I think they should be considered. And I have said 
that before.
    But it is a complicated decision that involves other kinds 
of assistance that we are giving, and the paramount fact, which 
is that we need to support the Ukrainians politically and 
economically. And in particular, our NATO partners and our 
European allies need to support Ukraine economically.
    In the end, that is going to be the key to keeping what we 
all want, which is an independent Ukraine that can find its own 
way, and isn't pushed around by the Russians.
    The Chairman. Well, I don't disagree with you about the 
importance of financial assistance. But what concerns me is 
while we study to death, and thus do not provide them the means 
with which to defend themselves against armor, among other 
things, and artillery attacks and so forth, the positions in 
the Eastern rebel-held area are strengthening.
    And last point is countries around the world are watching 
how reliable a friend we are. And I am concerned that this has 
tremendous detrimental effects, encouraging Putin's aggression, 
and discouraging countries from being friends of the United 
States, because we are sitting here wringing our hands and 
providing a few blankets and whatnot.
    I don't think that is a good way to go. I realize that this 
has turned into a White House call. Sorry. Last point is there 
is tremendous bipartisan support in both the House and the 
Senate for providing this assistance. And I really think the 
administration is isolated on this issue. That is also 
something that is not good for the country.
    I will--unless you have something you want to add, I don't 
want to cut you off, but----
    Secretary Carter. I would simply say that, a sort of 
personal observation, I was in Budapest in 1994 when the 
agreement was signed, that the Russians have violated. So I am 
very alive to the possibility that we had then, and I think 
still need to stick up for, of an independent Ukraine able to 
find its own way politically and economically, is the only 
thing I would say in the first instance. It is terribly 
important that that occur.
    And the other thing I would say is nobody ought to mistake 
that, you know, Ukraine is a very, very important country to 
us. It is not a NATO ally. And I just want to make the point 
that as far as NATO allies are concerned, that raises a whole 
other set of issues that I hope anyone who is considering 
encroaching upon a NATO ally takes very seriously.
    The Chairman. Well, I hope so, too. I will be traveling to 
that region shortly, and talking with some of those folks about 
it.
    Secretary Carter. Thank you for doing that.
    The Chairman. Thank you all for being here. Mr. Secretary, 
welcome back. General Dempsey, you are going to miss us when 
you are gone.
    General Dempsey. Yes, sir.
    The Chairman. Thank you all for being here. With that, the 
hearing stands adjourned.
    [Whereupon, at 1:05 p.m., the committee was adjourned.]

     
=======================================================================



                            A P P E N D I X

                             March 18, 2015
   
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 18, 2015

=======================================================================

      
  
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             March 18, 2015

=======================================================================

      

            RESPONSE TO QUESTION SUBMITTED BY MR. THORNBERRY

    Secretary Carter. There is very little in terms of the 
legal framework applicable to the designation of funds for 
``Overseas Contingency Operations.''
    Section 251(b)(2)(A)(ii) of the Balanced Budget and 
Emergency Deficit Control Act of 1985 (BBEDCA), codified at 2 
U.S.C. Sec. 901(b)(2), provides for an adjustment to the 
discretionary spending limits specified elsewhere in the BBEDCA 
for the security category. The adjustment corresponds to the 
sum of appropriations for discretionary accounts that ``the 
Congress designates for Overseas Contingency Operations/Global 
War on Terrorism in statute on an account by account basis and 
the President subsequently so designates''.
    Section 251(b)(2)(A)(i) of the BBEDCA provides for the same 
type of adjustment for appropriations for discretionary 
accounts that ``the Congress designates as emergency 
requirements in statute on an account by account basis and the 
President subsequently so designates''.
    There is no BBEDCA statutory definition of ``Overseas 
Contingency Operations/Global War on Terrorism'' (OCO/GWOT). In 
contrast, the BBEDCA does define the term ``emergency.'' 
Section 250(c)(20) of the BBEDCA, codified at 2 U.S.C. 
Sec. 900(c), defines the term ``emergency'' as: ``a situation 
that- (A) requires new budget authority and outlays (or new 
budget authority and the outlays flowing therefrom) for the 
prevention or mitigation of, or response to, loss of life or 
property, or a threat to national security; and (B) is 
unanticipated.'' Further, subsection (c)(21) defines the term 
``unanticipated'' to mean that ``the underlying situation is--
(A) sudden, which means quickly coming into being or not 
building up over time; (B) urgent, which means a pressing and 
compelling need requiring immediate action; (C) unforeseen, 
which means not predicted or anticipated as an emerging need; 
and (D) temporary, which means not of a permanent duration.''
    Although there is no definition of OCO/GWOT, OMB has 
promulgated guidance regarding what costs can be budgeted for 
in the OCO request. While most of the funds designated for OCO/
GWOT have been requested and appropriated to the Department of 
Defense, funds designated for OCO/GWOT have also been requested 
and appropriated for the Department of State, the United States 
Agency for International Development, and Related Agencies. In 
addition, there is no statutory cap on amounts that can be 
designated for OCO/GWOT. Thus the Congress has broad discretion 
as to what accounts and what amounts to designate for OCO/GWOT; 
the sole check is that the President must also designate the 
funds for OCO/GWOT. If the President does not so designate, the 
funds are still appropriated and would be available for their 
intended purpose, but they would count against the statutory 
spending limits, which may result in or increase the magnitude 
of a sequestration.
    Finally, while funds designated for OCO/GWOT are not 
counted against discretionary spending limits when determining 
if a breach has occurred, if a breach does occur and accounts 
are sequestered, funds designated for OCO/GWOT are subject to 
sequestration.   [See page 55.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY DR. WENSTRUP

    General Dempsey. The policy of the United States is not to 
use lethal force when it is feasible to capture a terrorist 
suspect, because capturing a terrorist offers the best 
opportunity to gather meaningful intelligence and to mitigate 
and disrupt terrorist plots. Capture operations are conducted 
only against suspects who may lawfully be captured or otherwise 
taken into custody by the United States and only when the 
operation can be conducted in accordance with all applicable 
laws and consistent with our obligations to other sovereign 
states.
    Throughout its history, the United States has held 
detainees captured during armed conflict in various overseas 
theaters as well as on U.S. soil. Historically, the 
circumstances of each conflict have determined the appropriate 
detention location. In similar fashion, decisions regarding 
where to detain members of al-Qaida and associated forces will 
be made on a case-by-case basis, in consultation with the 
Department's interagency partners.
    The Administration approaches new captures outside 
Afghanistan based on the facts of the situation on a case-by-
case basis with a range of options, including:
    <bullet> LProsecution in our military commission system or 
in the Federal courts;
    <bullet> LTransfer to another country for an appropriate 
disposition there; or
    <bullet> LLaw of war detention, in appropriate cases.
    When we do detain a suspect, we interrogate him/her. Both 
the law of war and the civilian criminal justice system allow 
for the questioning of unprivileged enemy belligerents.
    If we are holding them under AUMF authorities, then we may 
continue exploitation for strategic intelligence purposes, and 
still maintain the options to transfer them to another 
government for prosecution, or hold them in U.S. Government 
custody for prosecution in military commissions or under 
Article III in the U.S. Federal courts. Generally speaking, we 
are not required to immediately turn them over to another 
government.
    If the detainee can be prosecuted, we decide whether to try 
him in a civilian court or a military commission. A criminal 
conviction could be a basis for incarceration even after a 
cessation of hostilities.
    The President has directed the Department of Defense to 
designate a site in the United States where we can hold 
military commissions.
    The law of war allows the government to continue detention 
until the cessation of hostilities. The end of armed conflict 
against al-Qaida would terminate the United States' authority 
to detain individuals based solely on their status as enemy 
combatants. Detainees could be held until released under post-
conflict ``wind-down'' authority, subject to determination that 
the risks they pose are mitigated; or if there is an 
independent basis for continued detention. When the armed 
conflict against al-Qaida ends, we will face difficult 
questions about what to do with any detainees remaining in 
military detention without a criminal conviction and sentence.   
[See page 46.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY MR. O'ROURKE

    General Dempsey. Yes, we have the necessary resources to 
achieve our tactical and strategic goals against ISIL, but our 
strategy requires supporting indigenous forces in both Iraq and 
Syria. We are enabling our ISF partners on the ground to take 
the fight to ISIL, who have made advances and suffered 
setbacks. In Syria, we continue to work diligently to develop a 
capable and reliable partner on the ground in order to confront 
ISIL. We have the resources to achieve our strategic and 
tactical goals, but this effort takes time, and we are only 8 
months into a long campaign to degrade ISIL. Air Strikes are a 
key component of our kinetic support to these ground forces, 
but as the SecDef stated in his testimony, only local forces on 
the ground can impose a lasting defeat.   [See page 23.]
                                ------                                


              RESPONSE TO QUESTION SUBMITTED BY MR. TAKAI

    General Dempsey. As the President noted in his letter 
transmitting the proposed AUMF to the Congress, the proposal 
does not authorize long-term, large-scale ground combat 
operations like those our nation conducted in Iraq and 
Afghanistan. Such operations will be the responsibility of 
local forces because that is what our local partners and allies 
want, that is what is best for preserving our international 
coalition, and, most importantly, that is in the best interest 
of the United States.
    The President has been clear, however, that there always 
may be exigent or unforeseen circumstances in which small 
numbers of U.S. forces may need to engage in limited or short 
duration ground combat operations, for example, to protect and 
defend U.S. personnel or citizens. The proposed AUMF would 
therefore provide the flexibility to conduct ground combat 
operations in other, more limited circumstances, such as rescue 
operations involving U.S. or coalition personnel or the use of 
special operations forces to take military action against ISIL 
leadership. The proposal would also authorize the use of U.S. 
forces in situations where ground combat operations are not 
expected or intended, such as intelligence collection and 
sharing, missions to enable kinetic strikes, or the provision 
of operational planning and other forms of advice and 
assistance to partner forces.
    As the ground combat limitation is focused on major 
operations--long-term, large-scale--the proposal would provide 
the authority and the flexibility required to perform the 
mission.   [See page 26.]
                                ------                                


             RESPONSE TO QUESTION SUBMITTED BY MR. MOULTON

    Secretary Carter. The Fiscal Year (FY) 2016 President's 
Budget includes several initiatives that will retire force 
structure, eliminate excess infrastructure, and reform 
compensation and health care, and the budget reallocates those 
savings to higher priority programs, such as improving 
readiness and weapon system modernization.
    The top examples of these initiatives include adopting 
several recommendations from the Military Compensation and 
Retirement Modernization Commission (MCRMC), slowing the growth 
of military basic pay and housing allowances, modernizing the 
military healthcare system, reforming commissary operations, 
authorizing a new Base Realignment and Closure (BRAC) round, 
retiring A-10 aircraft, and permitting the Army Aviation 
Restructure Initiative (ARI) to proceed.
    MCRMC: The Department supports MCRMC's objective to improve 
the military compensation and retirement systems, and 
encourages Congress to support the recommendations for which 
the Department has submitted legislation to Congress.
    <bullet> LFor instance, the Department recently submitted a 
Blended Retirement proposal that would blend a 20-year cliff-
vested defined benefit annuity with a defined contribution plan 
that would allow service members to contribute to a portable 
Thrift Savings Plan account.
    <bullet> LThe Department's proposed Blended Retirement 
System would ensure 85 percent of service members receive 
Government contributions toward their retirement--compared to 
fewer than 20 percent under the current system, provide DOD 
with better tools to recruit and retain the All-Volunteer 
Force, and produce significant savings over the long term.
    <bullet> LThe retirement changes were considered 
holistically in the context of the recruiting, retention, and 
retirement continuum that would best enhance the readiness of 
the All-Volunteer Force in an increasingly competitive labor 
market. The Department looks forward to continuing to work with 
Congress and the MCRMC to meet our solemn responsibility to 
ensure that any changes protect the long-term viability of the 
All-Volunteer Force, improve quality-of-life for service 
members and their families, and safeguard the fiscal 
sustainability of the military compensation and retirement 
systems.
    Compensation Reform: The President's Budget provides 
funding and common-sense reforms to ensure service members 
receive competitive pay and benefits as well as critical 
training and equipment. Within compensation reform, the 
following initiatives are essential:
    <bullet> LSlow the growth of military basic pay--High 
retention rates reflected within the military force allow the 
Department to recruit and retain the requisite force and 
continue to offer a competitive military pay and benefits 
package. It is important to emphasize that even with a lower 
basic pay raise, military compensation will still remain well 
above the 70th percentile of wages for comparable civilians by 
age and education, while achieving substantive savings. Given 
the current Budget Control Act funding caps for Defense, 
increasing the military pay raise in excess of the President's 
Budget request would force the Department to displace critical 
modernization and reduce readiness funding to finance the 
increase.
    <bullet> LSlow the growth of basic allowance for housing 
(BAH)--The Department's military and civilian leaders carefully 
considered this option to generate savings--savings needed to 
help close serious resource shortfalls in training, 
maintenance, and equipment. The Department found that slowing 
BAH growth until an average member's out-of-pocket expenses 
reached five percent achieved an appropriate and reasonable 
balance between the Department's need to achieve savings in the 
BAH program and the need to continue to offer a generous, 
competitive, and sustainable package of military pay and 
benefits.
    <bullet> LModernize military healthcare--The proposed 
Consolidated Health Plan structure would make it easier for 
beneficiaries to focus on health (no cost shares for preventive 
care), maintain a close relationship with their primary care 
provider (zero to low copayments), and offer beneficiary 
freedom of choice of providers. A proven utilization management 
design would attract beneficiaries to Military Treatment 
Facilities (MTF) for care as their provider of choice, thereby 
maximizing utilization of investments in the MTF structure.
    <bullet> LReform commissary operations--Our proposals would 
allow the Department to offset operating costs and develop 
effective commissary business practices without significantly 
affecting patron savings.
    Conducting Additional BRAC Round: The Department is facing 
a serious problem created by the tension of declining budgets, 
reductions in force structure, and limited flexibility to adapt 
its infrastructure accordingly and, therefore, urges the 
Congress to provide the BRAC authorization as requested. The 
Department needs to find a way to strike the right balance so 
that infrastructure does not drain resources from the 
warfighter. The Department's goal is a BRAC focused on 
efficiency and savings, and it is a goal that is achievable.
    A-10 Aircraft: Divestiture of the A-10 is critical. It 
enables the Air Force to fund higher priority programs and 
balance current readiness with future modernization 
requirements. Such prohibitions limit or delay savings, 
efficiencies, and operational capabilities necessary to meet 
mission objectives in the current fiscal environment. In the 
case of the A-10, DOD believes the Joint Strike Fighter and 
other multi-mission aircraft will replace the A-10's singular 
mission of close air support while also providing other 
critical capabilities.
    ARI: The DOD plans to transfer 72 Apache aircraft in FY 
2016. The ARI, introduced in the FY 2015 President's Budget and 
planned in the FY 2016 President's Budget, will position Army 
aviation assets where they can best meet the combatant command 
requirements and strategic priorities. The Army remains 
steadfast in its conviction that ARI is the Total Army 
enterprise solution given the mounting costs of aging aircraft, 
growing operational requirements, and increasing fiscal 
pressures. In FY 2015, the Army began to divest the oldest, 
least capable aircraft while retaining the best, most capable 
airframes. When fully implemented, this initiative will use 
Army aviation forces more efficiently, increases the Army 
National Guard's domestic response capacity, and optimizes the 
Army's capability to meet combatant commanders' requirements.   
[See page 32.]

     
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 18, 2015

=======================================================================

      

                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. How important was the removal of the 
restrictions on Government of Japan funds for the relocation of 
Marines from Okinawa to Guam in last year's [National Defense 
Authorization Act]? I felt the Guam Oversight Committee was a 
helpful internal tool to the Department of Defense; are you 
planning to reinvigorate the committee?
    Secretary Carter. The Department appreciates the support of 
Congress in lifting the restrictions on Government of Japan 
funds for the relocation of Marines from Okinawa to Guam. 
Removal of these restrictions will allow us to move forward on 
this essential component of the rebalance to the Asia-Pacific 
region, resulting in a more geographically dispersed, 
operationally resilient, and politically sustainable posture in 
the area.
    Pursuant to Title 10, U.S. Code, subsection (e) of section 
132, the Deputy Secretary of Defense chairs the Guam Oversight 
Committee (GOC) and serves as the Department of Defense's 
principal representative for coordinating the interagency 
efforts in matters relating to Guam. The GOC convenes on a 
quarterly basis and addresses issues specific to the 
relocation.
    Ms. Bordallo. Under Secretary of Defense for Acquisition, 
Technology and Logistics Frank Kendall recently testified 
before the committee, ``What I am seeing in foreign 
modernizations . . . is a suite of capabilities that are 
intended clearly . . . to defeat the American way of doing 
power projection, American way of warfare . . . And, without 
saying too much about this, the Chinese, in particular and, 
again, to a lesser extent, the Russians are . . . making 
advances beyond what we currently have fielded.'' Many studies 
have determined that the United States utilized a cost 
imposition strategy that significantly contributed to the 
downfall of the Soviet Union. I'm concerned that rogue nations 
are now in the position to impose that strategy on the United 
States by developing ballistic missiles that cost in the small 
millions of dollars while we spend multiple billions on a 
limited missile defense system. Can you comment on how the 
fiscal year 2016 budget, or future budgets, will account for 
the development of missile defense or others systems that 
protect against this dynamic?
    General Dempsey. We are very much aware of our potential 
adversaries' intent to use a cost imposition strategy against 
us, especially in the area of missile defense where it is 
inherently cheaper to build missiles to hit ground targets than 
to build missiles to hit other missiles. Our approach to this 
problem is to find and develop innovative capabilities that are 
both affordable and effective in achieving our goals in 
integrated air and missile defense.
    Our vision includes greater contributions to our missile 
defense capabilities by encouraging our partners and allies to 
share more of the burden for regional defense, particularly to 
protecting their home soil. To this end, we are seeing an 
uptick in foreign military sales of systems like Patriot and 
Terminal High Altitude Area Defense (THAAD). Additionally, we 
are looking at future innovative ways to mitigate air and 
missile threats via advanced technologies like railguns, 
directed energy, electronic attack, and even cyber. These hold 
promise in the long term to reverse the cost imposition back on 
our adversaries. Other techniques like dispersal of our assets, 
hardening, and defeating missile systems before they launch via 
kinetic or non-kinetic means are also in our plans. 
Furthermore, we want to ensure the systems we already have are 
properly modernized, ensure that our personnel are fully 
trained to operate those systems, and fully integrate missile 
defenses within the joint force and with our foreign partners 
and allies.
    For homeland defense, we remain committed to the cost of 
fielding a reliable, effective system to defeat a limited 
ballistic missile attack from a rogue nation. Here, deterrence 
based on denial is essential because of the enormous 
destruction if one of these countries were able to target our 
population centers with ICBM [intercontinental ballistic 
missile]-delivered weapons of mass destruction. We have also 
budgeted for affordable sensor and shooter solutions to 
deterring and defeating cruise missile attacks on the homeland. 
All of these concepts are in the discussion for our Fiscal Year 
2016 budget and beyond, and we will continue to reassess our 
plans to ensure we are finding smart ways to outpace the threat 
within realistic budget constraints.
                                ------                                


                   QUESTIONS SUBMITTED BY MR. SHUSTER

    Mr. Shuster. We keep hearing that there is 20 percent 
excess capacity in Department of Defense infrastructure, but 
there is no guarantee that infrastructure will not be needed to 
fight future conflicts. I believe there are ways to seek 
efficiencies without a Base Realignment and Closure (BRAC), a 
process that produces questionable cost savings. Within my 
district, I have seen the flexibility that an installation, 
Letterkenny Army Depot, gains through the use of leased land 
and contract personnel to respond to ever changing demand 
signals. What innovative solutions are available to address 
excess infrastructure and are there benchmarks that can be 
shared across the services to avoid the BRAC process?
    Secretary Carter. The Department does not believe that 
innovations such as leasing arrangements or similar measures to 
repurpose excess space on installations would be sufficient to 
offset the costs of maintaining the Department's excess 
infrastructure. As is the case in the private sector, it is 
more efficient to close an entire installation rather than 
mothball or lease a portion of that installation. The majority 
of BRAC savings come from civilian and military personnel 
eliminations, reduced base operating support costs, and reduced 
facility sustainment costs. Non-BRAC approaches do not achieve 
these savings because they do not enable the Department to 
eliminate the overhead personnel and sustainment costs 
associated with running and guarding the base.
    The Department believes the BRAC process could address 
concerns of needed infrastructure to fight future conflicts. 
The Department believes that the BRAC process provides 
appropriate safeguards to ensure the Department retains the 
capacity to respond to surge, accommodate a significant 
reconstitution of the force, and support all forces, including 
those currently based outside the United States. In fact, the 
selection criteria contained in the previous BRAC language (and 
the Department's current request), specifically criteria one 
and three, capture the concept of surge capacity. Criterion one 
requires the Department to consider ``current and future'' 
mission capabilities and criterion three assesses the ``ability 
to accommodate contingency, mobilization and future total force 
requirements.'' Moreover, in the execution of prior BRAC 
rounds, and as verified in a 1999 study, the Department has 
demonstrated that it will retain within the U.S. installation 
infrastructure sufficient difficult-to-reconstitute assets to 
respond to surge, accommodate a significant reconstitution of 
the force, and support all forces, including those currently 
based outside the United States.
    Mr. Shuster. President Obama's proposal for a new 
Authorization for the Use of Military Force ``does not 
authorize the use of the United States Armed Forces in enduring 
offensive ground combat operations.'' General Allen, the 
Special Presidential Envoy on countering the Islamic State of 
Iraq and the Levant (ISIL), testified before the Senate 
Committee on Foreign Relations last month that the definition 
of ``enduring offensive ground combat operations'' could ``be 
two weeks, it might be two years.'' Please specifically define 
``enduring ground operations.''
    Secretary Carter. The proposed Authorization for the Use of 
Military Force would not authorize long-term, large-scale 
ground combat operations like those the United States conducted 
in Iraq and Afghanistan. It would provide the flexibility to 
conduct ground combat operations in more limited circumstances, 
such as rescue operations involving U.S. or coalition personnel 
or special operations to take military action against Islamic 
State in Iraq and the Levant leadership.
    Mr. Shuster. Since the administration has not clearly 
defined ``enduring ground operations,'' who will be responsible 
for determining whether an action violated the stipulation 
against ``enduring ground operations''?
    Secretary Carter. Any requirement for U.S. ground combat 
operations would be assessed on a mission-by-mission basis. I 
do not believe there would be opportunities for the commanders 
on the ground to engage in ``enduring ground operations'' 
without further orders from the President.
    Mr. Shuster. The President has placed a three-year 
limitation in his proposed Authorization for the Use of 
Military Force. Do you believe that the current strategy will 
defeat the Islamic State of Iraq and the Levant in that time 
window?
    Secretary Carter. While the campaign to degrade and 
ultimately defeat the Islamic State of Iraq and the Levant 
(ISIL) will not be over anytime soon, the proposed three-year 
term will provide the next president, the Congress, and the 
American people an opportunity to review progress and evaluate 
the authorities in place. Execution of the current strategy is 
the best way to ensure progress between now and then, while 
remaining flexible to the dynamic situation on the ground.
    Mr. Shuster. The United States manufactures a number of 
weapons systems that our allies can utilize as a counterpoint 
to the military advantages of hostile nations like Russia and 
Iran. Countries like Poland are increasingly looking to proven 
weapons systems, such as the Patriot Air and Missile Defense 
System, which are maintained and modified right here in United 
States at Letterkenny Army Depot in my district. In light of 
this, how do you believe we can best utilize our organic 
industrial base to assist our allies in hostile regions?
    Secretary Carter. Our industrial base, both organic and 
commercial, can and does provide weapons support to our allies. 
For example, a number of foreign military sales (FMS) customers 
have the PATRIOT Air and Missile Defense System in their 
inventory, although Poland does not have an FMS case with the 
United States for PATRIOT. Missile recertification for PATRIOT 
can be/is performed at Letterkenny Army Depot for three FMS 
customers with certain components recertified at Raytheon. The 
organic and commercial industrial base will continue to support 
the various weapons systems that our allies utilize.
    Mr. Shuster. The Authorization for the Use of Military 
Force (AUMF) gives the President authority to ``use the Armed 
Forces of the United States as the President determines to be 
necessary and appropriate against ISIL or associated persons or 
forces.'' What impact does the use of the term ``associated 
persons or forces'' have with regards to how broadly this AUMF 
can be leveraged in areas of the world outside of Iraq and 
Syria?
    Secretary Carter. ``Associated persons or forces'' means 
individuals and organizations fighting for, on behalf of, or 
alongside the Islamic State of Iraq and the Levant (ISIL) or 
any closely-related successor entity in hostilities against the 
United States or its coalition partners. To be considered an 
``associated force,'' a group must both be an organized, armed 
group that has entered the fight alongside ISIL; and a co-
belligerent with ISIL in hostilities against the United States 
or its coalition partners. Before a group is targeted, it will 
be evaluated against this standard, its current activities, our 
regional security priorities, and existing Presidential policy 
guidance.
    I do not currently envision using U.S. military force 
against ISIL outside of Iraq or Syria. That said, the enemy in 
this conflict has not confined itself to the geographic 
boundaries of any one country, and I believe it would be a 
mistake to signal to ISIL that there are safe havens for them 
outside Iraq and Syria by limiting the authorization to 
specific countries. The President's proposed AUMF would provide 
the flexibility to address the threat as necessary.
    Mr. Shuster. We have seen previously how the premature 
withdrawal of American forces leads to destabilization and 
future conflicts in places like Iraq. Indeed, terrorist groups 
like the Islamic State of Iraq and the Levant (ISIL) thrive and 
grow in a power vacuum. Do you believe that President Obama's 
Authorization for the Use of Military Force allows for adequate 
planning for security operations after the defeat of ISIL?
    Secretary Carter. Yes, I believe President Obama's 
Authorization for the Use of Military Force allows for adequate 
planning for security operations after the defeat of ISIL. The 
immediate introduction of security and governance elements into 
contested areas from which ISIL has recently been driven out is 
essential to ensuring lasting success. This cannot be a 
military-only solution. The Department of State, along with 
General Allen in his role as the Special Presidential Envoy for 
the Global Coalition to Counter ISIL, is leading efforts on 
stabilization and is working closely with the Government of 
Iraq. I refer you to the Department of State for additional 
information about these efforts.
    Mr. Shuster. General Dempsey, you stated ``sequester-level 
cuts will lead to a hollow [Defense Industrial Base] that no 
longer holds all of the critical design and manufacturing 
capabilities our military needs.'' Do you believe that under 
the burden of the sequester our industrial base still has the 
capacity to support U.S. action in a major, large-scale 
conflict?
    General Dempsey. Passing the President's FY16 budget 
request will best ensure our industrial base can provide the 
military needs our warfighting men and women require to prevail 
in a major, large-scale conflict. Conversely, the impact of 
potential budget reductions--particularly sequestration--places 
substantial pressure on the Defense Industrial Base (DIB), 
creating a difficult environment for long-term planning. Firms 
must plan and realign business activities while competing for 
capital in competitive markets. In many cases, DOD comprises an 
ever-smaller portion of much larger markets (Aerospace, 
Electronics, IT/Telecom, Services, etc.). Companies are 
skeptical that DOD will be able to fully fund even its prior 
commitments. Since the 1990s, the DIB has seen erosion in 
multiple sectors, including fixed-wing aircraft, missiles, 
electronics, ground vehicles and materials, with some 
associated decreases in design engineering and manufacturing 
capability. While DIB arguably produces the best systems in the 
world, in many cases, the defense department is requiring lower 
quantities. Significant stress also exists in the lower sub-
tiers of the DIB as smaller firms, with limited access to 
capital, deal with the downturn in the defense budget further 
thinning the supply chain.
    Mr. Shuster. General Dempsey, you state ``Our Nation cannot 
sustain the world's finest military without also sustaining the 
world's strongest and most innovative defense industrial 
base.'' My district is home to Letterkenny Army Depot, and I 
have seen firsthand the high level of technical skill that goes 
into supporting our warfighter with the best equipment 
possible. Do you believe the sequester will impact depot 
workload, and how do you feel we can best support and preserve 
our depots and industrial base?
    General Dempsey. Passing the President's FY16 budget 
request will best ensure our industrial base can provide the 
military needs our warfighting men and women require to prevail 
in a major, large-scale conflict. Conversely, the impact of 
potential budget reductions--particularly sequestration--places 
substantial pressure on the Defense Industrial Base (DIB), 
creating a difficult environment for long-term planning. Firms 
must plan and realign business activities while competing for 
capital in competitive markets. In many cases, DOD comprises an 
ever-smaller portion of much larger markets (Aerospace, 
Electronics, IT/Telecom, Services, etc.). Companies are 
skeptical that DOD will be able to fully fund even its prior 
commitments. Since the 1990s, the DIB has seen erosion in 
multiple sectors, including fixed-wing aircraft, missiles, 
electronics, ground vehicles and materials, with some 
associated decreases in design engineering and manufacturing 
capability. While DIB arguably produces the best systems in the 
world, in many cases, the defense department is requiring lower 
quantities. Significant stress also exists in the lower sub-
tiers of the DIB as smaller firms, with limited access to 
capital, deal with the downturn in the defense budget further 
thinning the supply chain.
                                ------                                


                   QUESTIONS SUBMITTED BY MR. CONAWAY

    Mr. Conaway. This committee is concerned with and focused 
on improving bureaucratic processes such as acquisition to be 
more efficient to better serve our warfighters. Personnel are 
critical in making these improvements. We have learned the 
Office of the Secretary of Defense (OSD) has nearly two times 
as many contractor FTEs as they do military and civilian FTEs 
combined. In fact, two Under Secretary offices have three to 
nearly five times as many contractor FTEs as they do military 
and civilian FTEs. As compared to the Services, OSD has more 
than six times as many contractors. Given the role of execution 
falls to the Military Departments, can you explain why so many 
contractors work for OSD? How does this degree of bureaucracy 
help the services execute programs?
    Secretary Carter. The Office of the Secretary of Defense 
(OSD) staff, like other elements of the Department, utilizes 
contracted support to augment and complement its organic 
government staff of military and civilian personnel. Contracted 
support to the OSD staff provides, among other things, a wide-
range of professional, administrative, and management services 
that do not necessitate government performance. This use of 
contracted support allows the Department's military and 
civilian employees to focus on inherently governmental tasks--
command & control; policy development; budget formulation; 
program management; and oversight of the multitude of programs 
and services across the Department that exist to support the 
readiness, morale, and well-being of our uniformed service 
members and their families.
    As stated in the ``Plan for Streamlining Department of 
Defense (DOD) Management Headquarters, Section 904 Initial 
Report to Congress,'' the Deputy Chief Management Officer and 
DOD Chief Information Officer are co-leading a business 
processes and systems review (BPSR), and the supporting 
information technology systems, within OSD organizations and 
their associated Defense Agencies and DOD Field Activities. The 
BPSRs will help OSD offices identify their primary mission and 
outcomes, along with the necessary resources allocated 
(including contracted support), identify obstacles to achieving 
those outcomes (e.g., resource shortfalls, policy/legislative 
issues, process obstacles), and identify activities that might 
be improved or eliminated.
    Senior leaders will continue to examine opportunities to 
achieve additional efficiencies in OSD, as well as other 
headquarters activities in the Department.
    Mr. Conaway. In light of the fact that Acquisition, 
Technology and Logistics has more than 2,600 contractor FTEs, 
99 percent of their staff is GS-15 or higher, is the 
organization too top heavy and contractor dependent to 
eliminate unnecessary bureaucracy within the acquisition 
process? If Military Departments are ultimately responsible for 
executing acquisition programs, is it necessary, efficient, and 
effective to have an oversight organization that is itself 
larger than the Military Department acquisition organizations 
they provide oversight to?
    Secretary Carter. The Office of the Undersecretary of 
Defense for Acquisition, Technology and Logistics (OUSD(AT&L)) 
does not have 2,600 contractor FTEs.
    The contractor FTE figure cited is derived from the 
operations and maintenance (O&M) budget justification material 
for the entire Office of the Secretary of Defense (OSD), which 
includes the offices of the Undersecretaries for Personnel and 
Readiness, Policy, and Intelligence, as well as the Cost 
Assessment and Program Evaluation office, and the office of the 
Deputy Chief Management Officer. In addition, OUSD(AT&L) itself 
encompasses a far broader scope than oversight of the 
acquisition process. OUSD(AT&L) duties also include 
departmental oversight of logistics, nuclear and chemical/
biological activities, energy, installations, industrial base, 
engineering, and science and technology.
    The OUSD(AT&L) acquisition staff is a highly skilled, 
technical staff aligned to the objective of guarding against 
unwarranted optimism in program planning and budget 
formulation, and to prevent excessive risk taking during 
execution--all of which is essential to avoiding overruns and 
costly delays. The Military Departments plan, manage, and 
execute their acquisition programs, with reviews by the 
Undersecretary of Defense for Acquisition, Technology & 
Logistics at discrete milestones associated with major 
Department resource commitments. The reviews work to ensure 
programs are affordable, executable, and follow sound business 
and risk management practices. Routine execution monitoring of 
programs by OSD also affords the opportunity to intercede well 
before programs are at risk of failure. The Department is fully 
committed to reducing unnecessary bureaucracy and continuing 
the important work of improving the performance of the 
acquisition system while delivering superior capabilities to 
our forces.
    AT&L's civilian workforce utilizes the Acquisition 
Demonstration Project system. The civilian workforce is spread 
across various pay bands comparable to multiple GS grades and 
steps.
    Mr. Conaway. Most of the discussion regarding the Defense 
Department's efforts to achieve financial statement 
auditability has focused on the Military Department's (MilDep) 
plans. However, about 25 percent of the Defense Department's 
budgetary resources are appropriated to defense organizations 
outside of MilDeps. What is the current status of financial 
statement auditability for each of these defense organizations 
outside the MilDeps, and will each of them meet the goal of 
full financial auditability by fiscal year 2017?
    Secretary Carter. In December 2014, the Department issued 
an audit strategy for the other defense organizations (often 
described as the ``Fourth Estate''). This strategy includes a 
focus on all funds and entities, not just the General Funds, in 
order for the Fourth Estate to catch up with the Military 
Departments and be ready for a full financial statement audit 
by Fiscal Year (FY) 2018. Although, much of the dollar value of 
the Fourth Estate Defense wide accounts is already under audit 
and some individual organizations have asserted audit 
readiness, the goal is to have the remaining organizations 
under audit as soon as possible.
    The Department of Defense (DOD) remains committed to 
meeting the congressionally mandated FY 2017 goal for full 
financial statement auditability. The Fourth Estate audit 
strategy groups Fourth Estate entities into standalone audits 
or examinations categories, to track and demonstrate progress 
toward a full statement audit in FY 2018. The priorities begin 
with the most material components that are large enough to 
potentially impact DOD as a whole. These entities are referred 
to as the DOD Designated Audit Entities, and are comprised of 
entities such as the Defense Logistics Agency, the Defense 
Health Agency, U.S. Special Operations Command, and U.S. 
Transportation Command (USTRANSCOM). The next set of important 
entities is the DOD Designated Exam Entities, such as the 
Washington Headquarters Service which includes the Office of 
the Secretary of Defense for audit purposes, and the Missile 
Defense Agency. Per the Fourth Estate strategy, all remaining 
Fourth Estate entities (except for USTRANSCOM and the Defense 
Information Systems Agency) will or are already undergoing an 
examination of their Schedule of Budgetary Activity by 
independent public accounting firms. Current plans call for all 
material entities to begin full financial statement audits or 
examinations during
    Mr. Conaway. Has a comprehensive plan been developed by the 
staff of the Office of Secretary of Defense, in coordination 
with the Services and other Defense agencies, to re-mediate the 
internal control deficiencies impeding auditability in the 
``Transportation of Things'' business area?
    Secretary Carter. The Department has a comprehensive 
Financial Improvement and Audit Readiness strategy for 
remediating deficiencies, constructed on an enterprise-wide 
initiative together with individual component initiatives. The 
Military Services and Defense Agencies are focused on 
corrective actions to remediate their Transportation of Things 
internal control deficiencies. Led by an executive steering 
committee, a Transportation Financial Auditability (TFA) 
working group has been established to develop standardized 
processes and procedures supported by policy guidance, system 
integration, and enterprise-wide training, all in support of 
the Department's long-term auditability goals and desire to 
strengthen overall business processes. The TFA effort 
complements the Military Services' audit efforts.
    Mr. Conaway. When were these auditability weaknesses 
brought to Office of the Secretary of Defense's attention?
    Secretary Carter. The auditability weaknesses at the 
Departmental level, as distinct from weaknesses limited to 
individual components, were first acknowledged beginning in 
June 2013. The nature of the weaknesses initially identified is 
similar to other business processes where funding is managed 
centrally but decentrally executed.
    Mr. Conaway. What is an acceptable period of time for 
Office of the Secretary of Defense to develop a corrective 
action plan in this business area, i.e., from identification of 
the weakness during auditability preparations until development 
of a remediation plan?
    Secretary Carter. The Department has implemented a 
comprehensive Financial Improvement and Audit Readiness 
strategy for addressing the challenges based on enterprise-wide 
and component initiatives. The strategy relies on the Military 
Services to address specific weaknesses and developing 
corrective action plans to address their processes and systems. 
The Office of the Secretary of Defense strives to be as 
responsive as possible in addressing enterprise weaknesses. 
More detailed plans that potentially impact field level 
activities across the entire Department require collaboration 
and tend to take more time.
    Mr. Conaway. What is the likely impact of the 
Transportation of Things deficiencies on the Services' audit?
    Secretary Carter. Auditors apply the concept of materiality 
to financial statements. Amounts for Transportation of Things 
are less material compared to the amounts of payments to 
military and civilian personnel and for purchases of goods, 
e.g., weapons systems. Hence, Transportation of Things 
deficiencies will potentially have less impact on the 
auditability of the Military Services. The Department of the 
Army's Transportation of Things materiality is slightly greater 
than that of the Department of the Air Force's materiality or 
the Department of the Navy's materiality.
                                ------                                


                  QUESTIONS SUBMITTED BY MS. DUCKWORTH

    Ms. Duckworth. Secretary Carter, one area in particular 
continues to be problematic despite years of acknowledgments 
from your predecessors, as well as yourself, and numerous 
Government Accountability Office (GAO) and Inspector General 
(IG) reports. Expenditures for service contracting continue to 
be invisible in the Department's budget. Given the history of 
senior leader commitments towards compliance, including 
yourself, you can imagine my disappointment when I learned that 
the acting Assistant Secretary of Defense for Readiness & Force 
Management decided in September 2014 there is a lack of 
specific factual evidence to proceed forward in this area and 
appointed a Strategic Review and Planning Officer to look into 
this matter. Work on the ECMRA has been suspended ever since. 
Making matters worse, both GAO (GAO-14-491R) and Department of 
Defense IG report (DODIG-2014-114) that the Department is not 
resourcing the ECMRA effort. Despite the importance of an 
inventory of service contracts that is integrated into the 
budget process, particularly when the Department must make 
significant spending reductions, P&R has suspended work on the 
ECMRA, notwithstanding commitments from more senior-level 
Department leaders. Why? What additional requirements must 
Congress impose in order to ensure compliance? Will you commit 
to lift the suspension that your office has imposed on the 
ECMRA; use the accepted Army methodology; oversee compliance 
with the ECMRA by the services and the defense agencies in 
accordance with your office's statutory responsibilities as 
well as overall responsibility for Total Force Management; and 
ensure that the ECMRA is used to inform spending decisions on 
service contracts in order to allow the Department to finally 
be compliant with the laws that govern such spending?
    Secretary Carter. The Department of Defense (DOD) is 
proceeding deliberately to implement a solution that will meet 
Congressional intent: to generate an improved Inventory of 
Contracted Services (ICS), using ``instances'' of the 
Contractor Manpower Reporting Application (CMRA). These 
``instances'' are each separate and specific operating IT 
systems of CMRA that are used across DOD to capture contractor-
reported data.
    There are currently four ``instances,'' one for each 
Military Department and the fourth for OSD and the rest of the 
Fourth Estate, all modeled after a system developed by the 
Army, being utilized and accessible through a common portal at 
www.ecmra.mil. In the near term, all four ``instances'' of CMRA 
will be co-located on a Defense Manpower Data Center (DMDC) 
server; DMDC will ensure system compliance with DOD security 
and information technology policies. Because data collection 
for the FY 2014 ICS has already been completed, it is expected 
that this new operational model will be used to generate the FY 
2015 ICS.
                                ------                                


                    QUESTIONS SUBMITTED BY MR. WALZ

    Mr. Walz. Secretary Carter, can you tell me the status of 
the Office of the Assistant Secretary of Defense for Strategy, 
Plans and Capabilities? What is the office's staffing level 
now? What should it be? What was it over the last five years?
    Secretary Carter. Mr. Robert Scher was appointed as the 
first Assistant Secretary of Defense for the new Office of 
Strategy, Plans, and Capabilities and confirmed by the Senate 
in December 2014. Mr. Scher is responsible for advising the 
Secretary of Defense and the Under Secretary of Defense for 
Policy on national security and defense strategy, the forces 
and contingency plans necessary to implement defense strategy, 
nuclear deterrence and missile defense policy, and security 
cooperation plans and policies.
    Mr. Scher oversees four Deputy Assistant Secretaries, and 
the office has approximately 70 action officers. This level of 
staffing is appropriate for the duties and responsibilities 
assigned to the office. The office was created by 
reorganization within the Office of the Under Secretary of 
Defense for Policy and has assumed responsibilities that were 
previously assigned to other organizations, so it is not 
feasible to make a direct comparison to the level of staffing 
of previous offices.
    Mr. Walz. General Dempsey, with so much of our national 
resources our nation invested previously in Iraq before we 
terminated our ``advise and assist'' effort in Operation New 
Dawn, and the apparent ineffectiveness of the Iraqi Security 
Forces to defeat the Islamic State of Iraq and the Levant, why 
is our ``train, advise, and equip'' effort expected to work 
this time? What is different this time?
    General Dempsey. There are three fundamental reasons why I 
expect our train, advise and equip effort to succeed despite 
the ISF's recent failures. First and for most, ISIL is an 
existential threat to the GOI, this provides significant 
motivation for the GOI and MOD to implement necessary reforms 
as well as provides the catalyst for cooperation between all 
groups, Sunni, Shia and Kurds. Additionally, though the 
security forces that existed in 2011 were largely proficient, 
years of neglect and mismanagement by the Maliki regime left 
the security forces void of proficient leaders and equipment 
degrading their morale and combat effectiveness. The current 
security forces are part of a government that is under reform 
and moving towards inclusivity. As PM Abadi incorporates Shia, 
Kurds and Sunnis into his government, a non-sectarian driven 
government will result in a more proficient military.
    Mr. Walz. General Dempsey, please describe the planning 
assumptions that went into the defense strategy outlined in the 
2014 Quadrennial Defense Review and whether those planning 
assumptions hold true today. For example, what were the 
planning assumptions regarding Russia and our Department of 
Defense footprint in Europe, or the assumptions about future 
conflicts in the Middle East? General Dempsey, what key 
strategy, posture, force size, and force structure decisions 
resulted from these planning assumptions that you would 
recommend be revisited today given what you know about how the 
security environment has evolved?
    General Dempsey. The 2014 QDR acknowledged the complexity 
and uncertainty inherent in the international security 
environment. Chapter I of the 2014 QDR outlines assumptions 
regarding the future security environment by outlining expected 
global and regional trends. With regards to Russia, the risks 
associated with Russia's ``multi-dimensional defense 
modernization'' and ``actions that violate the sovereignty of 
its neighbors'' were acknowledged and integrated into the QDR 
analysis. Regarding the security environment in the Middle 
East, the QDR described the risks of regional destabilization 
as a result of the ongoing crisis in Syria including the 
potential for ``rapidly developing threats'' with the potential 
to ``directly threaten US interests at home and abroad.'' As 
the global security environment changes, we will continually 
reconsider our planning assumptions and make strategic 
adjustments to mitigate risks to US interests. In light of 
changes in the European theater, we have already made decisions 
to defer planned posture changes and are considering a range of 
options for further strategy, posture and structure changes in 
Europe. Recent developments in the Middle Eastern and Pacific 
theaters will also necessitate a review of planning assumptions 
and will likely have additional implications for our strategy 
and posture. Our planning assumptions will also adapt as 
resourcing levels evolve over time. The 2014 QDR strategy and 
force sizing construct were based on the capacity of the joint 
force at FY2015 Presidential Budget funding levels. Resource 
reductions below the PB level will create additional tensions 
above and beyond those generated by rapid changes in the global 
security environment. We have an ongoing effort to reform our 
global force management processes to ensure we adequately 
mitigate risks across the broad range of demands on the joint 
force. We are committed to ensuring our planning efforts adjust 
to a continually changing security environment while also 
adapting the joint force to successfully execute our national 
security strategy.
    Mr. Walz. General Dempsey, it has been reported that the 
Afghan National Security Forces (ANSF) remains largely an 
infantry-based force and lacks, or has only an emerging 
capability, many of the critical enablers that the United 
States provided in the past, including close air support, 
helicopter and fixed wing transport, medevac, and logistics 
support. Moreover, the ANSF has limited institutional 
capability and capacity for force generation and sustainment, 
which is concerning given the high number of casualties that 
the ANSF has suffered. A) If our primary mission responsibility 
is the train, advise, and assist (TAA) of the ANSF at corps-
level in key locations in Afghanistan, and the recent stated 
policy of the President to transition the TAA mission from a 
corps-level effort to one at the ministerial level, how can 
there be an expectation that the ANSF will be able to exist as 
an established competent security force in the future? B) Data 
indicates that the ANSF took as many as 5,000 causalities in 
2014. Is this sustainable from force generation and morale 
perspectives? If not, what are your predictions for the future 
regarding the ANSF and security environment in Afghanistan? a. 
If our primary mission responsibility is the training, 
advising, and assisting (TAA) of the Afghan National Security 
Forces (ANSF) at corps-level in key locations in Afghanistan, 
and the recent stated policy of the President to transition the 
TAA mission from a corps-level effort to one at the ministerial 
level, how can there be an expectation that the ANSF will be 
able to exist as an established competent security force in the 
future? b. Data indicates that the ANSF took as many as 5,000 
causalities in 2014. Is this sustainable from a force 
generation and morale perspectives? If not, what are your 
predictions for the future regarding the ANSF and security 
environment in Afghanistan?
    General Dempsey. In general, the Afghan National Defense 
and Security Force (ANDSF) are better trained and equipped than 
the insurgent forces, and continue to demonstrate tactical 
proficiency as they work together across security pillars. When 
they collaborate, they have proven that they can overmatch the 
insurgents whenever challenged. Afghan soldiers continue to 
demonstrate courage and resolve on the battlefield. 
Afghanistan's increasingly proactive approach to finding and 
eliminating threats to Afghan security and governing 
institutions is an important step in offensive operations to 
retain control of Afghan soil and to protect the population.
    The focus of ongoing coalition advisory efforts is to close 
gaps in ANDSF capability and foster Afghan self-sustainment. 
Good leadership is key to the ANDSF being a competent Security 
force in the future. President Ghani has made security his 
number one priority and is focused on maintaining the trust of 
the Afghan people while demonstrating resolve against the 
enemies of Afghanistan. Maximizing their ability to employ, 
sustain and maintain critical equipment, coupled with the 
identification and promotion of capable leaders, will be a 
near-term focus for Afghan and coalition leadership to maximize 
ANDSF effectiveness in the 2015 fighting season and beyond.
    Although ANDSF attrition has been a concern, recruitment 
and retention efforts have ensured that the growth of ANDSF 
forces has outpaced attrition since November 2014. The ANA 
leadership, from the ministerial to the tactical level, tracks 
force generation and attrition data. ANA end strength has been 
increasing since Nov 2014 and ANDSF leaders are implementing 
appropriate and effective measures to reduce attrition. The ANA 
currently has approximately 174,000 soldiers, airmen, and 
civilians serving in the MoD and are projected to recruit 4000-
6000 per month over the next few months. The ANDSF assumed the 
lead for security operations during the 2013 fighting season 
and increased their operational tempo by a factor of four in 
the 2014 fighting season. As such, there was a corresponding 
increase in ANDSF casualties. Casualties and attrition rates 
remain challenges but the ANDSF leadership is taking the 
following measures to address casualty rates:
    1. The AAF CASEVAC system has gone from flying 291 missions 
in 2012 to more than 1300 missions in 2015. 2. The ANA 
continues to field MRAPs, which offer enhanced mobility and 
protection as they move into FS 2015. 3. The AAF has also added 
significant aerial fires capabilities. They armed their Mi-17s 
with 23mm guns and honed the ability to fly and shoot at night 
under NVGs. They will also bring several MD-530s armed with .50 
caliber machine guns to the 2015 fighting season.
    In addition to casualties, ANDSF are working to address the 
issue of soldiers leaving their units--without authorization--
and being dropped from rolls (DFR). The most routinely cited 
reasons for leaving without authorization are poor leadership 
and quality of life. President Ghani and ANDSF leaders are 
taking steps to address the DFR issue to include making 
leadership changes in the ANDSF, enforcing leave policies, and 
looking at retention incentives. Some personnel that leave 
without authorization eventually return to their units. Over 
the course of 2014, the ANA did not set recruiting goals at 
levels sufficient to outpace attrition--which resulted in a 
decline in end strength. In November 2014, the ANA 
significantly increased its monthly recruiting targets and 
began work on a 14-month recruiting and training surge plan--
and ANA end strength has increased steadily since.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
